<html>
<title> - PONEMAN, SANDALOW, SUH, AND CONNOR NOMINATIONS</title>
<body><pre>[Senate Hearing 111-23]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-23
 
                      PONEMAN, SANDALOW, SUH, AND 
                           CONNOR NOMINATIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

CONSIDER THE NOMINATION OF DANIEL B. PONEMAN, TO BE DEPUTY SECRETARY OF 
ENERGY, THE NOMINATION OF DAVID B. SANDALOW, TO BE ASSISTANT SECRETARY 
 OF ENERGY (INTERNATIONAL AFFAIRS AND DOMESTIC POLICY), THE NOMINATION 
 OF RHEA S. SUH, TO BE AN ASSISTANT SECRETARY OF THE INTERIOR, AND THE 
   NOMINATION OF MICHAEL L. CONNOR, TO BE COMMISSIONER OF RECLAMATION

                               __________

                              MAY 5, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-779 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Connor, Michael, Nominee to be Commissioner, Bureau of 
  Reclamation, Department of the Interior........................    13
Lugar, Richard, U.S. Senator From Indiana........................     2
Poneman, Daniel B., Nominee to be Deputy Secretary, Department of 
  Energy.........................................................     6
Sandalow, David B., Nominee to be Assistant Secretary for 
  International Affairs and Domestic Policy, Department of Energy     9
Suh, Rhea S., Nominee to be Assistant Secretary for Policy, 
  Management and Budget, Department of the Interior..............    11
Warner, Hon. Mark, U.S. Senator From Virginia....................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    25

                              Appendix II

Additional material submitted for the record.....................    41


                      PONEMAN, SANDALOW, SUH, AND 
                           CONNOR NOMINATIONS

                              ----------                              


                          TUESDAY, MAY 5, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why do we not go ahead and get started?
    The committee meets this morning to consider four 
nominations for offices in the Department of Energy and the 
Department of the Interior. The four nominees are: Daniel B. 
Poneman, who is to be Deputy Secretary of Energy; David B. 
Sandalow, to be the Assistant Secretary of Energy for 
International Affairs and Domestic Policy; Rhea S. Suh, to be 
the Assistant Secretary of the Interior for Policy, Management 
and Budget; and Michael L. Connor, to be the Commissioner of 
Reclamation at the Department of the Interior.
    The President has nominated four highly qualified people 
for these important offices.
    For the past 8 years, Mr. Poneman has been a principal in 
The Scowcroft Group. Before that, he served as Director of 
Defense Policy and Arms Control at the National Security 
Council under the first President Bush and as a Special 
Assistant to the President and Senior Director of 
Nonproliferation and Export Control at the NSC under President 
Clinton.
    Mr. Sandalow is a Senior Fellow in Foreign Policy Studies 
at the Brookings Institution. During the Clinton 
administration, he served in senior offices in both the 
National Security Council and the Council on Environmental 
Quality before being appointed Assistant Secretary for Oceans, 
Environment and Science in the State Department.
    Both Mr. Poneman and Mr. Sandalow will bring to the 
Department of Energy valuable knowledge and experience in 
national security and international affairs.
    Ms. Suh was a Senior Legislative Assistant for Senator Ben 
Nighthorse Campbell and later a consultant for the National 
Park Service. For the past 10 years, she has been a program 
officer for, first, the Hewlett Foundation and then the Packard 
Foundation.
    Mike Connor is well known to this committee. For the past 8 
years, he has been counsel to our committee. He has advised me 
on water issues, as well as on Indian land and energy issues. 
He was instrumental in drafting and negotiating the Navajo 
Nation water settlement that was enacted as part of our Omnibus 
Public Lands Act earlier this year. He has been a major asset 
to me and to all members of this committee and will be greatly 
missed.
    So all four of the nominees are extremely well qualified 
for the positions they have been nominated. We are glad to have 
them before the committee this morning.
    Let me call on Senator Murkowski for any statement she has 
and then I will recognize our colleague, Senator Lugar, who 
wishes to make an introduction to us.
    Senator Murkowski.
    Senator Murkowski. Mr. Chairman, no comments this morning 
other than a welcome and a good morning to the nominees, and I 
look forward to hearing their statements. Again, we recognize 
that the responsibilities, the duties both between the 
Department of the Interior and Department of Energy are very 
key. Sometimes this confirmation process seems a little slow 
and tedious, but it seems like things are stepping up. Again, I 
look forward to the comments from those who will be before us 
this morning.
    The Chairman. Thank you very much.
    Senator Lugar, we are glad to see you this morning and 
welcome you to the Energy Committee and look forward to any 
comments you have.

         STATEMENT OF HON. RICHARD LUGAR, U.S. SENATOR 
                          FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman, Senator Murkowski, 
for welcoming me to introduce David Sandalow, to be Assistant 
Secretary of Energy for Policy and International Affairs. I 
congratulate you and Senator Murkowski on thoughtful leadership 
of this committee while our Nation seeks to forge a secure and 
sustainable energy future.
    I believe that energy policy reform, in particular, 
eliminating our over-dependence on oil, is critical to 
bolstering our Nation's security, economy, and foreign policy. 
That is why I am especially pleased to recommend David to this 
distinguished committee and to our Senate colleagues and to 
urge that he be confirmed quickly.
    David's many years of public service include high-level 
positions in the State Department, the National Security 
Council, and most recently he has been a Senior Fellow at the 
Brookings Institution. Over this time, David has demonstrated a 
keen understanding of the strategic importance of United States 
energy policy. Longstanding instability in the Middle East, 
OPEC supply manipulations since the 1970s, the empowerment of 
anti-Americanism from Caracas to Tehran, entrenchment of 
corrupt and authoritarian regimes, and outright conflict in 
places like the Niger Delta are all fueled by hundreds of 
billions of dollars that Americans spend to import oil.
    David brings innovative thinking to this complex problem. 
He has a proven ability to look over the horizon to formulate 
policy solutions that both meet current challenges and avert 
future crises. He understands that enhancing our energy 
security can go hand in hand with combatting the threats of 
climate change, but that balancing these priorities requires 
very difficult choices. Many of his ideas on the topic are laid 
out in his excellent book, ``Freedom from Oil'', for which 
David spent time researching, I must point out, in Reynolds, 
Indiana, otherwise known as ``biotown.'' I recommend the book--
I think it is a remarkable document--to colleagues, even if I 
had not contributed to it with a foreword.
    I note the position for which David is being considered as 
Assistant Secretary for Policy and International Affairs. For 
this, David has sound record of diplomatic experience, having 
served as an Assistant Secretary of State and on the National 
Security Council. He understands that domestic efforts to 
reduce oil dependence and improve our energy portfolio will 
have maximum effect if they are complemented by vigorous energy 
diplomacy abroad. As Assistant Secretary of Energy, David would 
play a critical role in meeting international energy 
challenges. We must find new ways of deepening cooperation on 
renewables, efficiency, and emergency response with other major 
consuming nations such as India and China. We must encourage 
countries holding major oil and gas reserves to make investment 
and supply decisions based on economics, not politics. We must 
find new ways to help poor nations provide the low energy cost 
that they need for sustained economic growth and to minimize 
the poor governance of oil revenues that have left too many 
oil-producing countries mired in poverty.
    Under my chairmanship of the Foreign Relations Committee 
and then under Chairmen Biden and Kerry, we have been working 
to ensure that our foreign policy fully reflects the challenge 
of global energy security. As Assistant Secretary of Energy, 
David would be tasked to oversee the other side of that 
equation to ensure our international energy activities support 
our foreign policy. With his range of executive branch 
experience, David would be well positioned to leverage the 
talent of energy, foreign policy, economic and climate 
professionals across the Government.
    The energy security problem David would face as Assistant 
Secretary of Policy and International Affairs--these questions 
are hardly new. We as a Nation have put off dealing with them 
for many years. Today, for the sake of our national security, 
our economy, our environment, we must find and implement 
solutions.
    I am confident that David Sandalow would be an exemplary 
addition to the Department of Energy and to the Obama 
administration. I am honored to introduce him to this 
committee. I thank you, Chairman Bingaman and Senator 
Murkowski, for having me here today.
    The Chairman. Thank you very much for your strong 
endorsement of David Sandalow. We appreciate it, particularly 
coming from you with your vast experience on international 
issues, which will be a major focus of Mr. Sandalow's 
activities in the Department. Thank you very much.
    We can excuse you at this point unless any member has a 
question, which I do not see anybody anxious to ask a question. 
Thank you for coming.
    Let me also recognize Senator Warner who is here to 
introduce to the committee, David Poneman, to be the Deputy 
Secretary of Energy. We are very glad to have you here and are 
anxious to hear your views.

          STATEMENT OF HON. MARK WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman and Ranking Member 
Murkowski and members of the committee. I am delighted to be 
here to introduce my good friend, Dan Poneman.
    I have to indicate in the effort of full disclosure that I 
am not only here to recommend Dan professionally, but I can 
also recommend him personally. His kids and my kids went to 
elementary school together, and we have spent some time on 
hikes in the woods. There was a little camp that our kids would 
go to together, and we sometimes had to go with them as a 
parent to accompany them. So we have seen each other in less 
than formal circumstances, and I can assure you that not only 
will Dan bring great professional credentials to this very 
important position, but also great personal characteristics as 
well.
    Dan has served in the Clinton administration on the 
National Security Council. He has served as well under 
President Bush, George H.W. Bush, as well as, I mentioned, 
President Clinton. He spent a year at the Department of Energy 
as a White House fellow. He has practiced law. He has been a 
principal with Brent Scowcroft in The Scowcroft Group and has 
served on a number of Federal commissions and advisory panels 
and co-authored books on nuclear energy, including Going 
Critical, the first North Korean nuclear crisis, which received 
the 2005 Douglas Dillon Award for distinguished writing on 
American diplomacy.
    As I mentioned at the outset, I think Dan will be a great 
addition to the administration. He will be a great addition as 
an Assistant Secretary. I am proud to support him and, as a 
fellow Virginian, recommend him wholeheartedly to the committee 
for its consideration.
    The Chairman. Thank you very much and thanks for taking the 
time to be here and heartily endorsing his nomination.
    Senator Warner. Thank you, Mr. Chairman.
    The Chairman. We will excuse you.
    Let me at this point call all four nominees to the witness 
table. If they would please come up and just remain standing at 
the table there, we will administer the oath to everybody since 
that is an essential part of our rules here in the committee.
    Why don't each of you please raise your right hand? Do you 
solemnly swear that the testimony you are about to give to the 
Senate Energy and Natural Resources Committee shall be the 
truth, the whole truth, and nothing but the truth?
    Mr. Poneman. I do.
    Mr. Sandalow. I do.
    Ms. Suh. I do.
    Mr. Connor. I do.
    The Chairman. Please be seated.
    Before you begin your statements, I would ask three 
questions and address these to each of you. The first question 
is, will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and to respond to issues of concern to the Congress? 
Let me start with you, Mr. Poneman. If you would respond to 
that question.
    Mr. Poneman. I will, Mr. Chairman.
    The Chairman. Mr. Sandalow.
    Mr. Sandalow. I will.
    The Chairman. Ms. Suh.
    Ms. Suh. I will.
    The Chairman. Mr. Connor.
    Mr. Connor. I will.
    The Chairman. The second question: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Mr. Poneman.
    Mr. Poneman. Mr. Chairman, all of my personal assets have 
been reviewed both by myself and by appropriate ethics 
counselors within the Federal Government, and I have taken 
appropriate action to avoid any conflicts of interest.
    The Chairman. Mr. Sandalow.
    Mr. Sandalow. Mr. Chairman, all of my personal assets have 
been reviewed both by myself and by appropriate ethics 
counselors within the Federal Government, and I have taken 
appropriate action to avoid any conflicts of interest.
    The Chairman. Ms. Suh.
    Ms. Suh. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Mr. Connor.
    Mr. Connor. Mr. Chairman, my investments, personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof to my knowledge.
    The Chairman. Thank you.
    Let me ask the third and final question. Are you involved 
or do you have any assets that are held in a blind trust?
    Mr. Poneman. No, sir.
    Mr. Sandalow. No.
    Ms. Suh. No, sir.
    Mr. Connor. No, Mr. Chairman.
    The Chairman. All right. At this point, our tradition in 
the committee and habit here is to invite nominees to introduce 
any family members that are present that they would like to 
introduce at this point. Mr. Poneman, did you have anyone you 
would like to introduce?
    Mr. Poneman. Yes, Mr. Chairman. I am delighted to introduce 
to the committee my wife of nearly 25 years, Susan, and our 
youngest son William, who is 15. We have two older children at 
school.
    The Chairman. We welcome the family members that are here.
    Mr. Sandalow.
    Mr. Sandalow. Thank you, Mr. Chairman. I am delighted to 
introduce my wonderful wife of 20 years, Holly; my children, 
Ben, Maya, and Holly; my brother Marc; and my sister Judith.
    The Chairman. We welcome them as well.
    Ms. Suh.
    Ms. Suh. Mr. Chairman, I am delighted to be joined today by 
my loving husband, Michael Carroll; my sister, Dr. Betty Sue 
Bergman; and my parents, Yung Ja and Chung Ha Suh.
    The Chairman. We welcome them to the committee.
    Mr. Connor.
    Mr. Connor. Yes, thank you. I am very fortunate to be 
joined by my wife Shari; my children, Matthew and Gabby; and my 
parents, Carl and Bea Connor.
    The Chairman. We are glad to see them here, particularly 
your parents who I have not seen since I was last in Las 
Cruces. But it is great to have all of the family members here.
    Let me now recognize each of you to make whatever opening 
statement or statements you would like to make before the 
committee asks questions.
    Mr. Poneman.

STATEMENT OF DANIEL B. PONEMAN, NOMINEE TO BE DEPUTY SECRETARY, 
                      DEPARTMENT OF ENERGY

    Mr. Poneman. Thank you, Mr. Chairman. Chairman Bingaman, 
Senator Murkowski, distinguished members of the committee, it 
is an honor and a privilege to appear before you as President 
Obama's nominee to be Deputy Secretary of Energy.
    I am also honored that Senator Warner took time from his 
busy schedule to introduce me to the committee.
    If I may summarize, I would like to respectfully request to 
submit my entire statement to the record.
    The Chairman. Yes. We will include all the written 
statements in the record, and if you could all summarize, that 
would be appreciated. Go right ahead.
    Mr. Poneman. Thank you, Mr. Chairman. I am grateful and 
humbled by the confidence that President Obama and Secretary 
Chu have expressed in me through this nomination. The President 
has articulated a clear and compelling vision for America's 
energy future, one in which we can transform our economy, 
protect our security, and spare the world from the ravages of 
climate change. Secretary Chu, a brilliant scientist, who has 
transcended the world of pure theory and applied his knowledge 
in the world of industry as well, is a uniquely well-suited 
choice to implement this vision. If confirmed, I can assure 
this committee that I will work as hard as I can in support of 
these critical efforts and to justify their confidence and 
yours.
    In a sense, appearing before you today brings me full 
circle. My first Government experience came as a summer intern 
in the U.S. Senate in 1975 when I had the privilege to work for 
Senator John Glenn.
    20 years ago, the White House Fellows program brought me 
into the Department of Energy, and from there, as you heard 
from Senator Warner, I moved to the National Security Council. 
The prospect of applying that experience to the challenges that 
lay before us is truly daunting but, at the same time, an 
exciting opportunity.
    Americans do not shrink from challenges. We embrace them. 
When the Soviets launched the Sputnik satellite in 1957, 
Americans redoubled their efforts in science, and within a 
dozen years, they had put a man on the moon. As President 
Kennedy said in 1962, we chose to go to the moon ``because that 
goal will serve to organize and measure the best of our 
energies and skills, because that challenge is one that we are 
willing to accept, one we are unwilling to postpone, and one 
which we intend to win.''
    We did win. Just as American technology was able to bridge 
the continent through the building of the intercontinental 
railroad and solid state transistors have connected us to the 
world, so too we can apply this technology in the service of 
our energy challenges.
    But technology alone cannot explain how we overcame these 
great challenges. Just as important are American leadership, 
determination, and an ability to keep our eye on the ball of 
our long-term strategic interests. That is how we won the cold 
war. In retrospect, our success may seem to have been assured, 
but the wise men surrounding President Harry Truman did not see 
it that way. While they could not see all the twists and turns 
that would lead them from Berlin to Cuba and beyond, they 
certainly knew that only a determined, concerted effort would 
succeed.
    One other element contributed to our success in the cold 
war. No U.S. policy, whose results must be measured over 
several decades, can succeed unless it enjoys broad, bipartisan 
support and close cooperation between our executive and 
legislative branches. The partnership between President Truman 
and Senator Arthur Vandenberg at the outset of the cold war 
exemplified that kind of partnership. History has judged that 
well.
    The challenges we face over the coming decades demand no 
less. If confirmed, I pledge that I will do my best to support 
the President and Secretary Chu and to work with the 
distinguished members of this committee to forge the kind of 
partnership that will best advance our shared interests in 
achieving America's energy objectives in a manner that promotes 
our prosperity and protects our security.
    Thank you.
    [The prepared statement of Mr. Poneman follows:]
     Prepared Statement of Daniel B. Poneman, Nominee to be Deputy 
                    Secretary, Department of Energy
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee to be Deputy Secretary of 
Energy.
    I would like to introduce my wife of nearly 25 years, Susan, and 
our sons, Michael and William. Our daughter, Claire, is away at 
college.
    I am grateful and humbled by the confidence that President Obama 
and Secretary Chu have expressed in me through this nomination. 
President Obama has articulated a clear and compelling vision of 
America's energy future--one that will transform our economy, protect 
our security, and save our planet from the worst impacts of climate 
change. Achieving this vision will require the United States to play a 
leading international role in combating global warming, to invest in a 
secure energy future achieved through new technologies and improved 
efficiency, and to reduce nuclear dangers. Secretary Chu--as a 
brilliant scientist whose work has taken him beyond pure theory into 
the practical worlds of innovation and industrial applications--is 
uniquely qualified to spearhead the implementation of a new energy 
strategy. If confirmed, I can assure this Committee that I will work as 
hard as I can in support of those critical efforts to justify their 
confidence and yours.
    In a sense, appearing before you today brings me full circle. My 
first experience working in government occurred here, in the U.S. 
Senate, in 1975, through the opportunity of a summer internship with my 
home state Senator, John Glenn. That summer launched a lifelong 
interest in energy, national security, and the relationship between the 
two disciplines. For over 30 years I have pursued that interest as I 
have passed through the worlds of academia, law, government, and 
business. Each phase has brought new perspectives and insights.
    Twenty years ago the White House Fellows program first brought me 
to the Department of Energy which, in turn, led to the opportunity to 
join the National Security Council staff under George H.W. Bush, where 
I participated in efforts to assure that the break-up of the Soviet 
Union did not result in the spread of nuclear materials and 
technologies to more nations and adversaries. This included the 
negotiations that led to the landmark deal under which the United 
States agreed to purchase 500 metric tons of highly-enriched uranium 
from the Soviet nuclear arsenal, to be blended down to low-enriched 
uranium fuel for commercial nuclear reactors. Under this ``Megatons to 
Megawatts'' program, over 14,000 nuclear warheads' worth of HEU has 
been converted to LEU, and one in every ten American light bulbs is now 
powered by material that once sat atop missiles targeting our cities.
    When President Clinton assumed office, I remained to stand up the 
newly-formed Directorate for Nonproliferation and Export Controls at 
the National Security Council. As Special Assistant to the President, I 
worked hard on a wide array of nuclear and nonnuclear proliferation 
challenges in many parts of the globe, as well as on the 1995 
conference which, through US leadership, secured the indefinite 
extension of the Nuclear Non-Proliferation Treaty. Since leaving 
government service in 1996, I have worked on a wide variety of legal 
and commercial issues along the seams where law, policy, commerce, and 
national security intersect, first as an attorney at Hogan & Hartson 
and, since 2001, as a principal at The Scowcroft Group.
    The prospect of applying this experience to advance the interests 
of the Nation represents both an exciting challenge and an awesome 
opportunity.
    Americans do not shrink from challenges. They embrace them. That 
has been the hallmark of the American experience. When the Soviets 
launched the Sputnik satellite in 1957, Americans responded through a 
redoubled commitment to science, and within a dozen years won the race 
to place the first man on the moon. In 1962, President Kennedy said 
that we chose to go to the moon within the decade not because it was 
easy, but because it was hard, ``because that goal will serve to 
organize and measure the best of our energies and skills, because that 
challenge is one that we are willing to accept, one we are unwilling to 
postpone, and one which we intend to win. . . .''
    And we did win. Just as Americans have conquered so many challenges 
over the years--from building railroads to connect our continent to 
inventing the solid-state transistors that connected our world.
    Within that spirit and that wellspring of American ingenuity lie 
the answers to this Nation's energy challenges.
    Better technology has played an indispensable role in moving our 
country forward--and science can give us better choices on energy. But 
technology alone cannot explain how we overcame these great challenges. 
Innovation is a necessary but not sufficient condition for success. 
Just as important are American leadership, determination, and an 
ability to keep our eye on the ball of our long-term strategic 
interests.
    That is how we won the Cold War. In retrospect, our success may 
seem to have been assured. But that is not how it appeared to the 
``wise men'' surrounding President Truman, when they devised the 
containment strategy to counter the threat of Soviet aggression. They 
could not possibly have foreseen all the twists and turns that lay 
ahead, from Berlin to Cuba and beyond, but they understood that only a 
determined, collective effort would succeed. They supported the 
investments in technology to assure our military outmatched the Warsaw 
Pact, and organized the Atlantic Alliance to enlist the collective 
resources and energies of the West to resist Communist aggression.
    And one other element contributed to our success in the Cold War. 
No US policy whose results must be measured over several decades can 
succeed unless it enjoys bipartisan support, and close cooperation 
between our Executive and Legislative Branches. The partnership between 
President Harry Truman and Senator Arthur Vandenberg personified that 
cooperation at the outset of the Cold War, and history has judged that 
kind of partnership to have served our Nation well. The challenges we 
face over the coming decades--in transforming our energy systems, 
mitigating the effects of climate change, and sustaining our deterrent 
while reducing nuclear dangers--demand no less. If confirmed, I pledge 
that I will do my best to work with the distinguished members of this 
Committee to forge the kind of partnership that will best advance our 
shared interests in achieving America's energy objectives in a manner 
that promotes our prosperity and protects our security.

    The Chairman. Thank you very much.
    Mr. Sandalow, go right ahead.

    STATEMENT OF DAVID B. SANDALOW, NOMINEE TO BE ASSISTANT 
   SECRETARY FOR INTERNATIONAL AFFAIRS AND DOMESTIC POLICY, 
                      DEPARTMENT OF ENERGY

    Mr. Sandalow. Thank you, Mr. Chairman, Ranking Member 
Murkowski, and members of the committee. Thank you for holding 
this hearing in this busy time. I am honored to appear before 
you as President Obama's nominee to serve as Assistant 
Secretary of Energy for Policy and International Affairs. I am 
deeply grateful to President Obama and Secretary Chu for 
entrusting me with this challenging assignment, and I am deeply 
grateful to Senator Lugar for his friendship, support, and 
generous introduction, as well as his long record of 
distinguished leadership on international energy issues.
    Thank you for allowing me to introduce members of my family 
who were here today earlier. I am also thinking today of my 
warm and loving grandmother, Mary Davis Cohn, who was taken 
from us recently after a long and full life. Today's hearing 
would have made her very happy.
    When he appeared before this committee in January, 
Secretary Chu spoke of an ``ambitious and urgent mission--to 
move to a sustainable, economically prosperous and secure 
energy future.'' If confirmed as Assistant Secretary, I would 
be a principal advisor to the Secretary on energy policy as he 
pursues this mission and would help coordinate the Department's 
engagement on international affairs.
    My own professional background provides long training for 
this post. I am currently a Senior Fellow in foreign policy 
studies at the Brookings Institution where my research focuses 
on energy policy. During the 1990s, I served as an Assistant 
Secretary of State, as a senior director on the National 
Security Council staff, and as an associate director on the 
White House Council for Environmental Quality. Other parts of 
my background are set forth in the statement submitted for the 
record.
    Mr. Chairman, in the early 1980s, I was privileged to spend 
part of the summer in Shanghai in one of the first groups of 
exchange students to live in China following normalization of 
U.S.-China relations. At the time, there was one international 
phone line in the entire city of Shanghai that we could use to 
call home. I remember taking cabs to the Heping Hotel on 
weekends to do just that. In contrast, last year, when I landed 
at Beijing airport after a 14-hour nonstop flight from 
Washington, my BlackBerry automatically connected with a 
wireless network moments after the plane landed. By the time we 
reached the gate, I had already sent several emails to family 
and colleagues back home.
    Now, if you had told me more than 25 years ago that I would 
1 day send written messages around the world from a device I 
could fit in my pocket, as I sat waiting to unload from an 
airplane, I would have been skeptical. In much the same way, 
many people today doubt that we will ever be able to provide 
clean, cheap, and secure energy for billions of people around 
the world. However, I believe that clean energy technologies 
have the potential to transform the world in the next 25 years 
as much as information and communications technologies have in 
the past 25. I believe clean energy technologies can help speed 
recovery from our current economic troubles and provide good 
jobs for Americans for decades to come.
    The U.S. Department of Energy can play a central role in 
this transition. I am honored to be nominated to a leadership 
post in the Department at this very special moment. If 
confirmed, I look forward to working closely with members of 
this committee and with many others to help President Obama and 
Secretary Chu build a clean energy future.
    Thank you.
    [The prepared statement of Mr. Sandalow follows:]
   Prepared Statement of David B. Sandalow, Nominee to be Assistant 
Secretary for International Affairs and Domestic Policy, Department of 
                                 Energy
    Mr. Chairman, Ranking Member Murkowski and Members of the 
Committee: Thank you for holding this hearing in this busy time. I am 
honored to come before you as President Obama's nominee to serve as 
Assistant Secretary of Energy for Policy and International Affairs. I 
am deeply grateful to President Obama and Secretary Chu for entrusting 
me with this challenging assignment. I am also deeply grateful to 
Senator Lugar for his friendship, support and generous introduction, as 
well as his long record of distinguished leadership on international 
energy issues.
    I would like to introduce my wonderful wife of 19 years, Holly 
Hammonds, and our children, Ben, Maya and Holly. I am also delighted to 
introduce my brother Marc and sister Judith. The love and support of my 
family sustains me in everything I do. I am also thinking today of my 
warm and loving grandmother Mary Davis Cohn, who was taken from us 
recently after a long and full life. Today's hearing would have made 
her very happy.
    When he appeared before this Committee in January, Secretary Chu 
spoke of an ``ambitious and urgent mission--to move to a sustainable, 
economically prosperous, and secure energy future.'' If confirmed as 
Assistant Secretary for Policy and International Affairs, I would be a 
principal advisor to the Secretary on energy policy as he pursues this 
mission and would help coordinate the Department's engagement on 
international affairs.
    My own professional background provides long training for this 
post. I am currently a senior fellow in Foreign Policy Studies at the 
Brookings Institution, where my research and writing focuses on energy 
policy. In recent years, my work has included books and articles on oil 
dependence, plug-in electric vehicles and climate change. I have helped 
organize large conferences, expert seminars and bipartisan dialogue on 
the same topics. During the 1990s, I served as Assistant Secretary of 
State for Oceans, Environment & Science, as a senior director on the 
National Security Council and as an associate director on the staff of 
the White House Council on Environmental Quality. I have served as 
executive vice president of World Wildlife Fund-US, as an attorney at 
the U.S. Environmental Protection Agency and as an attorney in private 
practice. At the beginning of my career, I worked to create jobs for 
the people of Michigan in a position with the Michigan Department of 
Commerce.
    In the early 1980s, I was privileged to spend part of a summer in 
Shanghai, China, as part of one of the first groups of exchange 
students to live in China following normalization of U.S.-China 
relations. At the time, there was one international phone line in the 
entire city of Shanghai we could use to call home. I remember taking 
cabs to the Heping Hotel on weekends to do just that. In contrast, last 
year, when I landed at Beijing Airport after the 14-hour nonstop flight 
from Washington, my Blackberry automatically connected with a wireless 
network moments after my plane landed. By the time we reached the gate, 
I had already sent several emails to family and colleagues back home.
    If you had told me more than 25 years ago that I would one day send 
written messages around the world from a device I could fit in my 
pocket as I sat waiting to unload from an airplane, I would have been 
skeptical. In much the same way, many people today doubt we will ever 
be able to provide clean, cheap and secure energy for billions of 
people around the world. However I believe that clean energy 
technologies have the potential to transform the world in the next 25 
years as much as information and communications technologies have in 
the past 25. I believe clean energy technologies can help speed 
recovery from our current economic troubles and provide good jobs for 
Americans for decades to come.
    The U.S. Department of Energy can play a central role in this 
transition. I am honored to be nominated to a leadership post in the 
Department at this special moment. If confirmed, I look forward to 
working closely with Members of this Committee--and with many others--
to help President Obama and Secretary Chu build a clean energy future.

    The Chairman. Thank you very much.
    Ms. Suh, go right ahead.

STATEMENT OF RHEA S. SUH, NOMINEE TO BE ASSISTANT SECRETARY FOR 
   POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Suh. Thank you, Mr. Chairman, Senator Murkowski, and 
distinguished members of the committee. It is an honor and 
privilege to be here today as President Obama's nominee for 
Assistant Secretary of Policy, Management and Budget at the 
Department of the Interior. Thank you for the opportunity and 
thanks to the members of the committee staff and the personal 
staff who took time to meet with me last week.
    I also want to thank Secretary Salazar. It would be a great 
privilege to work for him, as well as the thousands of 
dedicated men and women within the Department itself.
    I was born on the edge of the Rocky Mountains in Boulder, 
Colorado, and raised by Korean immigrant parents who found 
their way to that great State like so many other pioneers with 
the dreams of freedom and of a better life for their family. 
Like so many other westerners, I grew up reaping the benefits 
of the lands and waters managed by our Federal Government. My 
dad first taught me how to fish in waters managed by the Bureau 
of Reclamation. As a Girl Scout, I camped out under the starry 
skies in Rocky Mountain National Park, and in high school, I 
helped build a section of the Continental Divide Trail, which 
is in part managed by the Bureau of Land Management. This 
tapestry of lands, the backdrop of my childhood, has influenced 
me and my values throughout my life.
    Early on in my career, I worked to inspire young people 
about our natural world as a high school teacher of earth 
sciences and then later as a consultant to the National Park 
Service.
    During my tenure as a legislative assistant to Senator Ben 
Nighthorse Campbell, I worked in and with both political 
parties, negotiating collaborative opportunities in legislation 
that included the Presidio Trust, the Black Canyon of the 
Gunnison National Park, and the Boston Harbor Islands National 
Recreation Area.
    Most recently, I have served as a grant-maker for two of 
the largest charitable foundations in the country, first at the 
Hewlett Foundation and now at the Packard Foundation.
    Over the last 11 years, I have managed hundreds of grants 
and millions of dollars focused on consideration in the North 
American West. In particular, I have sought opportunities to 
support a broad array of conservation voices, including the 
voices of Native Americans, hunters and anglers, faith-based 
coalitions, and environmental justice organizations. Over time, 
I have come to believe that the most durable and successful 
conservation policies are those that are created with broad 
input, including local input, to create place-based solutions 
that ultimately provide both biological sustainability of our 
natural systems as well as the economic viability of local 
communities.
    I believe that the Department of the Interior is presently 
facing many critical challenges. These challenges include 
issues of accountability and fiscal management, educating the 
public about the importance of public lands and resources, and 
understanding and reacting proactively to the impacts of 
climate change. With these challenges comes an enormous amount 
of opportunity and responsibility. The Department must bring a 
new level of transparency, efficiency, and effectiveness to its 
work. In addition, it must ensure broad public input into the 
decisionmaking process. Finally, the Department has a huge 
opportunity to involve a new generation of leaders helping them 
find a place in building the Department's future legacy.
    So I would like to end by coming back to my beginnings. 
From the first time I hooked a rainbow trout with my dad, I was 
the beneficiary of the bounty of our Nation's rich natural 
heritage. If confirmed, I hope to continue the legacy of this 
bounty by providing for the sustainable use and management of 
the Department's lands and waters for the benefit of all of the 
people of this great country.
    Thank you so much for the honor.
    [The prepared statement of Ms. Suh follows:]
 Prepared Statement of Rhea S. Suh, Nominee to be Assistant Secretary 
     for Policy, Management and Budget, Department of the Interior
    Mr. Chairman, distinguished members of the Committee, it is an 
honor and privilege to be here today as President Obama's nominee for 
Assistant Secretary of Policy, Management and Budget at the Department 
of the Interior. Thank you for the opportunity and thanks to the 
members of the committee staff and personal staff who took the time to 
meet with me last week.
    I also want to thank Secretary Salazar; it would be a great 
privilege to work for a man whom I deeply respect and admire. It would 
also be a true honor to work on behalf of and with the thousands of 
dedicated men and women within the Department of Interior.
    Being in this room today brings back many fond memories of the time 
when I worked for Senator Ben Nighthorse Campbell. It would be a 
pleasure to have the opportunity to work with so many familiar and 
respected colleagues again.
    I was born on the edge of the Rocky Mountains in Boulder, Colorado, 
and raised by Korean immigrant parents who found their way to that 
great state like so many other pioneers, with dreams of the freedom 
that this nation promises and of a better life for their family. Like 
so many other Westerners, I grew up reaping the benefits of the lands 
and waters managed by our federal government. My dad first taught me 
how to bait-fish for trout in Lake Granby, managed by the Bureau of 
Reclamation; as a Girl Scout, I camped out and told ghost stories under 
the starry skies in Rocky Mountain National Park; and in high school, I 
helped build a section of the Continental Divide Trail, which is in 
part managed by the Bureau of Land Management. This tapestry of lands--
the backdrop of my childhood--has influenced me and my values 
throughout my life.
    My background taught me the importance of sustainable use of our 
resources, the protection of the most special places within our nation, 
and the need to balance protection of those special places with the 
needs of local communities. With these values, I have worked in a 
variety positions thorough my career. Early on, I worked to inspire 
young people about our natural world as a high school teacher of Earth 
Sciences in the public school system in New York City and later as a 
consultant to the National Park Service in New England. During my 
tenure as a Legislative Assistant to Senator Campbell, I worked in and 
with both political parties, negotiating collaborative approaches in 
legislation that included the Presidio Trust, the Black Canyon of the 
Gunnison National Park, and the Boston Harbor Islands National 
Recreation Area. And most recently, I have served as a grantmaker for 
two of the largest charitable foundations in the country--first at the 
Hewlett Foundation and now currently with the Packard Foundation.
    Over the past eleven years, I have managed hundreds of grants and 
millions of dollars focused on conservation issues in the North 
American West. In particular, I have sought opportunities to support a 
broad array of conservation voices, including the voices of Native 
Americans, hunters and anglers, faith-based coalitions and 
environmental justice organizations. Over time, I have come to believe 
that the most durable and successful conservation policies are those 
that are created with broad input, including local knowledge to create 
place-based solutions that ultimately promote both the biological 
sustainability of natural systems as well as the economic viability of 
local communities. I have also worked diligently to create 
accountability within my grantmaking--developing clear strategic plans 
with performance metrics that can be monitored and evaluated over time 
for their effectiveness.
    I believe that the Department of the Interior is presently facing 
many critical challenges. These challenges include issues of 
accountability and fiscal management, educating the public about the 
importance of public lands and resources, and understanding and 
reacting proactively to the impacts of climate change. With these 
challenges comes an enormous amount of opportunity and responsibility. 
The Department must bring a new level of transparency, efficiency and 
effectiveness to its work. In addition, it must ensure broad public 
input into the decision-making process. It must also involve a new 
generation of leaders looking both to discover their country's natural, 
cultural and historical heritage and to help them find a place in 
building the Department's future legacy. Finally, the Department must 
provide economic opportunities for local communities through the 
sustainable use of our public lands, including alternative energy 
generation and transmission.
    So I would like to end by coming back to my beginnings. From the 
first time I hooked a rainbow trout with my Dad, I was a beneficiary of 
the bounty of our nation's rich natural heritage. If confirmed, I hope 
to continue the legacy of this bounty by providing for the sustainable 
use and management of the Department's lands and waters for the benefit 
of all the people of this great country.
    Thank you again for the honor of being here today.

    The Chairman. Thank you very much for your statement.
    Mr. Connor, we are glad to hear your statement.

STATEMENT OF MICHAEL CONNOR, NOMINEE TO BE COMMISSIONER, BUREAU 
           OF RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Mr. Chairman, Senator Murkowski, and 
members of the committee. I am honored to appear before you 
today as President Obama's nominee to be the Commissioner of 
the Bureau of Reclamation.
    As I mentioned earlier, I am fortunate to be joined by my 
wonderful wife and my kids and my parents, and needless to say, 
without their love and support over the years, I would not be 
in this position, and for that I am very grateful.
    As most of you know, I am in a unique position relative to 
most nominees, having spent the last 8 years serving on the 
staff of this committee. Given that background, I hope you will 
indulge me a brief comment on my tenure here. In short, these 
years have been the highlight of my professional career. During 
that time, I have been privileged to work with and for 
individuals who represent the most positive aspects of public 
service. Notwithstanding competing interests, my colleagues 
have demonstrated time and again a remarkable ability to stay 
focused on an overriding goal, and that is to address this 
country's energy and natural resources challenges in a manner 
reflecting good public policy. Simply put, Mr. Chairman, they 
follow your example.
    Similarly, I have had the good fortune to work with high-
quality professionals on the other side of the aisle. In the 
area of water policy, we have worked closely together and we 
have agreed much more than we have disagreed. But even in those 
instances in which we did not share similar views, we typically 
found sufficient common ground to make progress on those 
issues. If confirmed, I look forward to continuing that 
approach in new position.
    Finally, I cannot do justice in conveying the value of the 
support and the friendships that exist on the committee and in 
your personal office, Mr. Chairman. Through both good and 
difficult times, I have benefited by witnessing the strength, 
intellect, modesty, and good humor by which you and my 
colleagues have dealt with personal and professional challenges 
during the past 8 years. I have learned a lot in the process, 
and I will miss working here, Mr. Chairman. Thanks to both you 
and my colleagues for the opportunities provided on this 
committee.
    I am now afforded an incredible opportunity to be part of 
President Obama's administration and to work with Secretary 
Salazar and the talented team he is putting together at the 
Department of the Interior. I am excited at the prospect but 
recognize the enormous challenges ahead in addressing water 
issues facing the 17 western States.
    Taking the helm of the Bureau of Reclamation, is a 
monumental task. As a New Mexican, one who understands the 
importance of water in the West, it is a job that I will 
relish, if I am confirmed. Water is a recurring part of my 
family's history. My maternal grandfather was an original 
member of Taos Pueblo's water rights task force. My paternal 
grandfather was part of the construction crews that built the 
aqueduct tunnels delivering water to New York City out of the 
Catskill Mountains. One of my great grandfathers was seasonally 
employed cleaning ditches for an irrigation district in 
southern Colorado.
    In my written statement, I have outlined my qualifications, 
as well as some thoughts and the key issues facing the Bureau 
of Reclamation and the need to work with all the different 
constituencies that are involved
    If I have learned nothing else on this committee, though, 
it is the value of brevity, so I will end my statement there, 
and I will be available to answer questions at the appropriate 
time. Thank you.
    [The prepared statement of Mr. Connor follows:]
   Prepared Statement of Michael Connor, Nominee to be Commissioner, 
           Bureau of Reclamation, Department of the Interior
    Chairman Bingaman, Senator Murkowski, and members of the Committee, 
I am honored to appear before you today as President Obama's nominee to 
be the Commissioner of the Bureau of Reclamation. I am fortunate to be 
joined today by my wife Shari, our two children Matthew and Gabriela, 
and my parents, Carl and Bea Connor. Needless to say, without their 
love and support through the years, I would not be in the position I am 
today. For that, I am grateful.
    As most of you know, I am in a unique position relative to most 
nominees, having spent the last 8 years serving on the staff of this 
Committee. Given that background, I hope you'll indulge me a brief 
comment on my tenure here. In short, these years have been the 
highlight of my professional career. During this time, I have been 
privileged to work with and for, individuals who represent the most 
positive aspects of public service. Notwithstanding competing 
interests, my colleagues have demonstrated time and again, a remarkable 
ability to stay focused on an overriding goal--addressing the country's 
energy and natural resource challenges in a manner reflecting good 
public policy. Simply put Mr. Chairman, they follow your example.
    Similarly, I have had the good fortune to work with high-quality 
professionals on the other side of the aisle. In the area of water 
policy, we have worked closely together and have agreed much more than 
we have disagreed. But even in those instances in which we did not 
share similar views, we typically found sufficient common ground to 
make progress. If confirmed, I look forward to continuing that approach 
in my new position.
    Finally, I cannot do justice in conveying the value of the support 
and the friendships that exist on the Committee and in your personal 
office, Mr. Chairman. Through both good and difficult times, I have 
benefited by witnessing the strength, intellect, modesty, and good 
humor, by which you and my colleagues have dealt with the personal and 
professional challenges arising during the past 8 years. I will miss 
working here, Mr. Chairman. Thank you, to both you and my colleagues, 
for the opportunities provided me here.
    I am now afforded an incredible opportunity to be a part of 
President Obama's administration, and to work with Secretary Salazar 
and the talented team he is putting together at the Interior 
Department. I am excited at the prospect but recognize the enormous 
challenges ahead in addressing water issues facing the seventeen 
western states. Similar to energy, water is fundamental to the economic 
well-being of the West. Its use, of course, has enormous implications 
for the environment. We have not always struck the right balance 
between these important and sometimes competing interests. If 
confirmed, I will continue efforts to find that balance, and to do so 
as efficiently as possible.
    Taking the helm of the Bureau of Reclamation is a monumental task. 
As a New Mexican, one who understands the importance of water in the 
West, it is a job that I will relish. Water is a recurring part of my 
family history. My maternal grandfather was an original member of Taos 
Pueblo's water rights task force. My paternal grandfather was part of 
the construction crews that built the aqueduct tunnels delivering water 
to New York City out of the Catskill Mountains. And one of my great-
grandfathers was seasonally employed cleaning ditches for an irrigation 
district in Southern Colorado. I have been lucky in my career to carry 
on a family tradition associated with water.
    As for my qualifications, I am confident that my background as an 
engineer and lawyer and my experience in the private sector and in 
government have prepared me well for this position. First, I understand 
the issues facing the Bureau of Reclamation. Drought, climate change, 
aging infrastructure, increasing population, environmental needs, and 
site security are all issues that drive a great deal of Reclamation's 
actions these days. We have made tremendous progress in this Committee 
in establishing the programs necessary to confront these issues. It is 
my hope that the Senate will now allow me to work on the implementation 
side.
    Second, I am familiar with the talented staff at the Bureau of 
Reclamation and I have a general understanding of how the organization 
functions. At the same time, I have a perspective that is external to 
the organization which should enable me to assess its operations 
objectively and offer a different view on how to improve the agency's 
mission.
    Finally, I am fully aware that the key to making progress on 
critical water and hydropower issues is to work cooperatively and 
openly with the different constituencies involved in these issues. The 
states, water users, power users, environmental community, Indian 
tribes, scientists, and several Federal agencies, all have an important 
role to play. Progress on seemingly intractable issues will only come 
through a cooperative effort based on a fundamental recognition of the 
legitimate interests of each of these stakeholders and a serious 
commitment to achieving long-term certainty in water use and 
allocation. Without that commitment, water policy will continue to be 
formulated in the courtrooms rather than the negotiating table.
    Of course, the Congress will be at the center of any problem-
solving actions which involve the Bureau of Reclamation. As I've 
already acknowledged, I have a deep respect for this institution and 
look forward to working closely with Members and staff to address the 
water and energy challenges facing their constituents.
    Thank you for the opportunity to address my nomination. I will be 
happy to respond to your questions at the appropriate time.

    The Chairman. Thank you very much. Thank you all for your 
great statements. As I said in my opening statement, I 
compliment the President on all of your nominations. I think he 
has chosen very well, and obviously in the case of Mike Connor, 
the Obama administration's gain is our committee's loss. I have 
made that point to many people as well.
    But at this point, let me call on other members, Senator 
Murkowski first, to see if she has questions.
    Senator Murkowski. Thank you, Mr. Chairman.
    Let us start with you, Mr. Connor. I will do the easy ones 
first. We have had some very interesting conversations here at 
the committee as we talk about renewable energy concepts and 
implementation on a broader scale and the recognition that 
water is a very, very, very key component. Regardless of the 
energy source that we are talking about, whether it is solar or 
nuclear or wind, you have got to have the water.
    From your perspective, if confirmed there at the Bureau of 
Reclamation, how do you see the issues of climate change 
playing out within the Bureau and your ability to analyze the 
available data, the impact on the water resources? How do you 
see that kind of integration, if you will?
    Mr. Connor. I think there are two parts of the way the 
Bureau of Reclamation can play a role with respect to climate 
change and the challenges facing this country. I think, first 
and foremost, the Bureau of Reclamation has a role to play with 
respect to water conservation which, as we know, equals energy 
conservation. So the Bureau of Reclamation, in improving its 
operations, helping its customers improve their operations, has 
a role to play to enhancing energy efficiency in this country 
through water conservation applications.
    I think also the Bureau of Reclamation, given its 
facilities, its land, its access to the infrastructure, has a 
role to play in deployment of renewable energy technologies, 
and I would like to see opportunities to integrate renewable 
energy opportunities into Reclamation's operations. That may 
help us use some of the hydropower resources that the Bureau 
generates, put more of that on the grid if we can integrate 
renewable energy into Reclamation's operations itself. So I 
think both of those are part of the equation.
    Senator Murkowski. Thank you.
    Ms. Suh, let me ask you. There is a great deal of 
conversation around here about our reliance on foreign sources 
of oil and the vulnerability that brings us as a Nation when we 
talk about our energy security. When we are talking about 
alternative energy technologies, though, we recognize that we 
are very, very heavily reliant on minerals that are found 
overseas. We are 100 percent import-reliant for the rare earths 
used in hybrid vehicles. We are 56 percent import-reliant for 
the silicone that is found in the solar panels. We are 91 
percent import-reliant for the platinum that we need for the 
fuel cell catalysts.
    Are you concerned that we are potentially risking 
exchanging our reliance on foreign oil for a similar reliance 
on foreign minerals? What policies do you see at the Department 
of the Interior that can address what I perceive to be an ever-
increasing risk of security?
    Ms. Suh. Thank you, Senator Murkowski, for that great 
question.
    Certainly I believe that both President Obama and Secretary 
Salazar have made it clear that they are very serious about 
energy independence for this country, and what energy 
independence, obviously, requires is both the continued and 
responsible development of domestic resources as well as the 
additional development of alternative resources again from 
domestic production itself.
    Having not been a part of the Department of the Interior 
yet, I am not entirely aware of all of the issues related to 
both the domestic energy production as well as mineral 
production on our public lands, but certainly, if confirmed, I 
look forward to getting up to speed quickly and working with 
you and the members of this committee on this important issue 
moving forward.
    Senator Murkowski. I do think it is an important issue, and 
I think it is one that is often overlooked. As Mr. Sandalow 
knows, you focused on that with your book, Freedom from Oil, 
recognizing that this dependency puts us in a very difficult, a 
very awkward spot at times. I have suggested that it is very 
easy for us as a Nation to move down that same path with 
natural gas, although we are seeing some very impressive 
opportunities and developments here domestically with natural 
gas.
    But when it comes to the minerals, I think that we have 
kind of closed our eyes on that as an issue. Maybe we do not 
have a policy. Maybe it is a policy by default. But I would 
look forward to an opportunity to discuss that with you at some 
length later.
    Mr. Sandalow, I want to ask you. You have made some 
statements in not only your book but in other places about our 
reliance on foreign sources of oil. I guess I want to ask you 
if your concern is, as we consider policies to reduce oil 
consumption, do you believe that we should do everything 
possible to reduce oil consumption or reduce foreign oil 
consumption? Because that is a concern for me.
    Mr. Sandalow. Thank you very much, Senator. It is a very 
important question. A reliance on foreign oil is an enormous 
national security threat to our Nation and that is something 
that President Obama and Secretary Chu have made clear. It is 
certainly a threat that I take very seriously and that I have 
written about.
    I think our reliance on oil broadly in our transportation 
fleet is a threat as well. 96 percent of the energy in our cars 
and trucks today comes from this one source, which is oil. Now, 
oil is a very important fuel. It is a high-quality fuel. But I 
think our dependence to that extent exposes our country to a 
variety of problems, including national security problems, 
economic problems, and environmental problems. So my own view 
would be that we need to diversify the fuel mix in our auto 
fleet.
    Senator Murkowski. In transportation.
    Mr. Sandalow. That is correct. Biofuels and electricity 
would be two other places that I think we should look in 
particular, along with natural gas which, as you point out, we 
have got abundant supplies of natural gas in this country which 
could help to fuel our vehicles. I visited Buenos Aires 
recently, and there the taxi cabs drive on natural gas. That is 
the type of thing that we should be looking at in this country 
as well.
    Senator Murkowski. Mr. Chairman, my time has run out. I 
have got a couple more questions, but I will defer to my 
colleagues and then come back for a second.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    I thank you all and congratulate you all on your 
willingness to provide public service. You will find there are 
days when you may wonder about the wisdom of your decision, but 
I think looking back on it as an overall situation, you will be 
grateful for the opportunity.
    Mr. Connor, we have a number of projects in Utah. That, I 
think, means we will be having a lot of conversations with you, 
and we are grateful to you for your willingness to take on this 
challenge.
    Mr. Poneman, as I look around the committee, I am probably 
the only one here who has served in the executive branch in 
previous administrations. My observation is the Deputy 
Secretary is the one who has to run the building. I simply 
share that with you. The Secretary deals with the policy levels 
at the top, but the person who is responsible to make sure that 
everybody gets along, that everybody meets his or her 
deadlines, that things happen and they work--it is an 
enormously significant administrative challenge. I know you 
will have an Assistant Secretary for Administration, but 
basically the guy who has to run the building is the Deputy 
Secretary. I hope you will exercise your management muscles as 
well as your analytic muscles to give Secretary Chu all of the 
help you possibly can in that area. Just a bit of gratuitous 
advice, which you are more than free to ignore, but I could not 
pass up the opportunity to offer it.
    Mr. Poneman. Thank you, Senator.
    Senator Bennett. Ms. Suh, I guess you anticipated that I 
would talk to you. Secretary Salazar went to Utah on the 1st of 
May to talk about various items. The 1st of May is an important 
date because that is the date that David Hayes established, in 
responses to my questions with respect to his confirmation, 
that there would be a preliminary analysis for the review of 
the 77 leases that the Secretary canceled. Unfortunately, the 
press reported the Secretary said, well, we could not meet the 
May 1st deadline because we did not have David Hayes. There 
have been statements, well, it is all Senator Bennett's fault 
because he is keeping us from getting the people that we need.
    So I would like to talk about that for a minute. I have 
repeatedly told the Secretary that I would be happy to lift my 
hold on David Hayes after we have seen some progress on the 
review, but there has been no progress, simply the public 
statements that somehow I am responsible for the fact that the 
Department is not doing anything.
    Now, David Hayes came to visit me in my office after we had 
this conversation and he made a personal commitment to me that 
the review would proceed with or without him. Now, he said if 
it was with him, if he could be confirmed, it would proceed 
more rapidly, but that it would proceed. He understood the 
current dynamic, recognized that he could not lead the team if 
he were not confirmed, but that it would go forward.
    It was not just in conversation. I have the documents that 
he sent me, and he says--and I will quote--``The review will 
proceed in a disciplined and timely way. The administrative 
record will be provided to all members of the review team as 
soon as it can be made available and before it is required by 
the court. Assuming the record can be made available within the 
next couple of weeks, every attempt will be made to review the 
record, conduct a site visit, and complete relevant interviews 
by May 1st. The review team will seek to complete its work and 
provide a report to the Secretary by May 29th.''
    Now, here is the point where you come in. Composition of 
the review team. If confirmed, David J. Hayes will have overall 
responsibility for undertaking the review of the 77 parcels 
that were withdrawn from the Utah lease sale. Pending Mr. 
Hayes' confirmation, the review team will consist of the acting 
Assistant Secretary for Policy, Management and Budget and 
acting Directors of the BLM and the National Park Service and 
their designees. The acting Solicitor, Art Gary, will provide 
legal support to the extent needed.
    Now, that does not indicate to me that the thing cannot go 
forward without David Hayes. It is a pretty clear statement 
that there was every intention that it would go forward. None 
of that has happened.
    So I come to your statement that you say that we need to 
have more transparency, efficiency, and effectiveness, and 
there is nothing I would like more, with respect to these 77 
leases, than more transparency, efficiency, and effectiveness. 
Assuming that your confirmation will go through--and I see no 
reason why it should not--you will take over the responsibility 
of this, and I would hope we could get from you a pledge here 
today that you will complete the commitment that was made to me 
by Mr. Hayes on Interior Department stationery. Since it is on 
the official stationery of the Interior Department, I assume 
the commitment was made by the Department, not Mr. Hayes.
    Now, is that something you are comfortable in undertaking?
    Ms. Suh. Yes, sir, it is. Obviously, I understand how 
important this issue is to you, Senator, and certainly, if 
confirmed, I would be more than happy to work with you and your 
staff personally in providing you the details that you are 
looking for. Obviously, I have not been at the Department of 
the Interior and so am not aware of the relevant facts with 
respect to this issue, but certainly, if confirmed, again I 
would be more than happy to work with you personally.
    Senator Bennett. I understand that, and my plea is not 
necessarily that you work with me personally, although I will 
maintain my continued interest in the matter. My plea is that 
you will work within the Department to get the Department to 
keep the commitment that they have made to me in writing toward 
which they have made zero progress ever since the commitment 
was made. Since you will replace the acting Secretary for 
Policy, Management and Budget and take the lead on this, I 
appreciate your commitment here. In my view--I agree with you 
absolutely--we need more transparency, efficiency, and 
effectiveness, and this issue is a very good place to start.
    Ms. Suh. Understood, sir. Thank you.
    Senator Bennett. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. I pass, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Sandalow, let us go back to you here. A project that we 
are following with great interest and hoping to encourage along 
is one that would ultimately deliver the vast quantities of 
natural gas from Alaska's Northern Slope down through the 
State, across through Canada, and then ultimately to the 
customers here in the Lower 48. Very important not only to my 
State but really to deliver this clean energy source that the 
country needs.
    I agree with your previous comment that when we look at our 
energy dependency, we can be smarter with how we are using our 
domestic energy sources, and if we can reconfigure our 
transportation sector, I think that that is a good thing. If we 
have got good stocks of natural gas, that is even better.
    When it comes to the Alaska project, we are working through 
things on our side. It is going slower, unfortunately, than we 
would like. But we have a tendency to kind of focus on the 
Alaska side and may often forget that we have got to go through 
another country in order for this project to come to fruition.
    What steps would you support, if any, to speed up 
construction of an Alaska natural gas pipeline? What steps 
should the Government be taking to ensure that Canada settles 
its first nation's issues, clears the right-of-way, permits 
construction of an Alaska natural gas pipeline, working with 
the Canadian government? What do you see as kind of that 
critical path forward?
    Mr. Sandalow. Thank you, Senator. I strongly support the 
points made in the premise of your question, that we need to 
develop our domestic natural gas resources, need to work 
closely to get those resources to market, and to work closely 
with our neighbors in Canada on that. I am not familiar with 
the details of the pipeline and the permitting issues and other 
siting issues, but to the extent that the Department of Energy 
has a role in this, I would look forward to working with you 
and with others to make that possible, if confirmed.
    Senator Murkowski. It clearly has a role. Again, we have 
got to remember that it is a project that is massive in scope, 
and it is not just working with our Federal agencies and State 
agencies, but we are dealing with Canada as well. So if 
confirmed, I think you would find that that is going to rise to 
a heightened level of interest. We are certainly hopeful that 
it does.
    Let me ask you a question about a comment or perhaps 
several comments that I understand you have made as it relates 
to offshore oil production. I am told that you made a comment 
that was quoted as saying, ``Offshore drilling is weak. It's 
like walking an extra 20 feet per day to lose weight.'' I also 
understand that you have been quoted as saying that offshore 
drilling should not be among the top solutions to America's 
energy issues.
    I would like to know if the statements that I have read are 
an accurate representation of your current thinking, and if so 
or if not, what is your thinking on offshore and should it be 
part of our country's energy policy? Should it be part of that 
mix?
    Mr. Sandalow. I think it should be, Senator. I believe we 
need a comprehensive plan to address our energy challenges, and 
that would include domestic energy production in an 
environmentally appropriate way, and that can include and 
should include offshore drilling where it is appropriate to do 
so.
    The comments I made were in the context of an overall 
global energy challenge, and in that context, I think we need 
to adopt measures such as alternative fuels and fuel efficiency 
in our vehicle fleet and simply focusing on one aspect of the 
problem is never going to be sufficient. But I very much 
support environmentally responsible domestic drilling.
    Senator Murkowski. So it is part of that mix.
    Mr. Sandalow. Very much so.
    Senator Murkowski. I appreciate that.
    Then last for you, Mr. Poneman, an issue about nuclear and 
Yucca Mountain. It has been made very clear by the Obama 
administration that they have no intention of pursuing the used 
nuclear fuel repository at Yucca which, of course, DOE has been 
focusing on for over 20 years. I think that this has caused 
more than just a little bit of confusion within this committee 
and with other Members of Congress since it comes before the 
Nuclear Regulatory Commission has even had a chance to review 
the Yucca Mountain license application.
    The administration's position has implications not only for 
licensing of current and future nuclear powerplants, but also 
for the disposition of defense program waste.
    So I am curious as to your views relating to the Yucca 
Mountain project. The license review is currently underfunded 
both at the Nuclear Regulatory Commission and at DOE. So I 
guess the question is, regardless of what decisions are made 
with regard to the Yucca Mountain project, the license review 
efforts that could provide, I think, invaluable regulatory, 
scientific insights that will inform future nuclear waste 
policy--do you think that these should be fully funded at both 
agencies whether it is NRC or DOE while we continue to debate 
up here about the future of nuclear fuel?
    Mr. Poneman. Thank you, Senator.
    Obviously, the Yucca decision was made previously, and I 
was not privy to that decision. But I think it speaks to the 
larger point of the role of nuclear moving forward and the 
extent to which it is critical that we resolve the issues 
surrounding the back end of the fuel cycle in order to enable 
that to occur. In that respect, I have not reviewed the 8,600-
page filing that went to the NRC, but I agree with the premise 
of your question, that there may be extremely valuable 
information contained therein which we could all go to school 
on in terms of figuring out a smart path forward for the back 
end of the fuel cycle.
    In this respect, what I have discussed with Secretary Chu 
is his commitment, as soon as possible, to stand up a blue 
ribbon commission that is going to look at the question of the 
disposition of spent fuel in the context of the whole 
international nuclear fuel cycle and to make sure that whatever 
learning we can derive from Yucca is applied to a solid basis 
going forward to have a politically sustainable and technically 
sound approach to spent fuel management.
    Senator Murkowski. Let me ask you just very quickly on that 
because this whole concept of the blue ribbon commission coming 
forward--you have mentioned, I think it was, political 
sustainability. How do you think with a blue ribbon commission 
we will be able to keep the political emotion out of this 
debate that we have seen swirling around around Yucca? Why 
would the blue ribbon commission be any different and somehow 
insulated from the politics of what we are dealing with here? 
Any ideas on that?
    Mr. Poneman. Senator, I am not naive to think that 
something that has engendered this much emotion will suddenly 
become merely antiseptic. But as someone once famously said, 
everyone is entitled to their own opinions, but they are not 
entitled to their own facts. I would hope that with 
distinguished Americans representing a variety of perspectives, 
scientific, political, industrial, and others pull together a 
kind of approach that you often see with the National Academy 
of Sciences and so on, that it is possible perhaps to lance the 
boil, bring science to the table, and have people of known 
credibility and stature help us reason through this to a 
position where we could come to some kind of closure. Not every 
blue ribbon commission has had that outcome. Some have. I would 
work as hard as I could to support the Secretary and, of 
course, work with you and this committee to make sure that is 
the kind of panel we are able to put together.
    Senator Murkowski. I think it would be critical to its 
success if it is advanced. I certainly hope that you would 
agree with Secretary Chu's comments that nuclear must be part 
of our energy solution in this country and work toward that 
end.
    Mr. Poneman. Senator, in my private capacity, I have spent 
a lot of time reading about this and reviewing demand curves 
looking out many decades. For me, I think perhaps one of the 
most persuasive was the MIT study in 2003. I have personally 
not seen any of these studies that are able to close the gap in 
terms of where we want to be with greenhouse gas emissions 
without a significant deployment of nuclear energy. I know for 
a fact, because I have discussed it with him, that Secretary 
Chu supports the role of nuclear in an energy mix. Obviously, 
we get a fifth of our electricity from it, 70 percent of our 
non-carbon-emitting energy. It must be in my view, my personal 
view, part of the equation for a low carbon energy future.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. First, I would 
like to congratulate each of the four nominees and welcome you 
here, welcome your families.
    Mr. Sandalow, thank you very much for taking the time to 
visit with me last evening.
    Mr. Connor, I will tell you that Gabby, sitting behind you, 
has been the most welcome member of the committee. She has been 
very attentive, paid attention to everything, and has done a 
great job in representing your family very well. I have a good 
look at her right there and she is smiling and doing a terrific 
job.
    [Laughter.]
    Senator Barrasso. I did have a question, Mr. Connor, 
because you have handled a number of complex water settlements 
during your time in public service, both as an employee of the 
Department of the Interior and as counsel for this committee. I 
wanted to visit a little about that because probably you know 
better than most, if not all, the implications of both 
interstate agreements and intrastate agreements and how that 
plays out. It can affect the supply, the allocation, the use of 
water, and in the Rocky Mountains water is a big issue for us. 
So I wanted to talk to you also about how these effects can be 
amplified when there is an agreement that is blessed by an act 
of the U.S. Congress.
    So with that in mind, I would like to ask you a few related 
questions about your views and philosophy on negotiating some 
of these settlements from an intrastate as well as an 
interstate agreement.
    Do you agree that the best approach to dealing with complex 
interstate or regional issues involving the use or allocation 
of water in the West is through negotiation and settlement 
among the stakeholders as opposed to, say, litigation?
    Mr. Connor. Oh, absolutely, Senator.
    Senator Barrasso. If the parties with potentially adverse 
or conflicting interests decide to take that approach, 
negotiation and settlement, what importance then do you place 
on the inclusion of all of the possibly affected parties?
    Mr. Connor. I think all affected parties ultimately need to 
be part of the process. Sometimes, though, quite frankly, 
progress is made by the parties most affected whose rights are 
at stake, get together, figure out a regime of water allocation 
that fits their needs, and then it is taken to a broader 
audience. I have seen progress come about both ways through 
small groups working outwards. Ultimately, the larger 
implications are seen by other parties--they are brought to the 
table and those issues can be resolved.
    So I think we can work this in a lot of different ways, but 
I think ultimately all parties with a legitimate interest are 
going to have their say and they have got to be dealt with in 
some way, shape, or form.
    Senator Barrasso. Thank you.
    Mr. Sandalow, I had a series of questions on oil and gas. I 
think Senator Murkowski asked those. Nuclear. I think you asked 
a number of those as well.
    We also had a chance yesterday to talk a little bit about 
coal and the importance of clean coal technology. As we 
discussed, coal is a very abundant, affordable and reliable 
secure source of energy. Wyoming has more than 1.4 trillion 
tons of coal. It is enough coal for the United States for 
centuries to come. I believe coal can be a very clean energy 
source.
    Do you believe the U.S. has a responsibility to take the 
lead in developing clean coal technology, as we know that coal 
is going to continue to be used across not just our Nation but 
across the world?
    Mr. Sandalow. I do, Senator, very strongly, and I know that 
President Obama and Secretary Chu share that view.
    Senator Barrasso. Then how would you recommend we move 
forward with respect to clean coal technology? We talked a 
little bit about carbon capture and sequestration.
    Mr. Sandalow. Senator, thank you for the chance to visit in 
your office yesterday. I appreciate that greatly. I was told by 
one of your staff there, by the way, that if Wyoming were a 
country, it would be the world's third largest coal producer. 
So I am delighted to talk about this.
    I strongly believe that we need to move forward on clean 
coal technology. The $3.4 billion in the Recovery Act, I think, 
is an important step forward on that. The Department of Energy, 
I understand, is moving forward to implement spending on that. 
There is further money in Department of Energy budget proposals 
on this.
    But more broadly, I think this is an area in which we need 
our best scientists, our best engineers, and our best minds 
working on it. In this country, as well as around the world, 
this is an area that is ripe for international cooperation. The 
best engineers in the world can profit greatly from visiting 
other countries and seeing what is happening in projects. There 
are many different geologies around the world, many different 
technologies, and I think it is an area that should be and I 
hope will be a top priority for our Government and others in 
the years ahead.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, did you have additional 
questions?
    Senator Murkowski. I do not. Thank you.
    The Chairman. Let me thank all members for coming to the 
hearing and also the witnesses. I think it has been a useful 
hearing.
    We will allow until 5 o'clock tomorrow for members to 
submit any additional questions that they would have for the 
record. If the nominees would respond quickly to those 
questions, if there are some submitted, we would appreciate 
that, and we hope to act quickly on your nominations and 
recommend action by the full Senate.
    Thank you again, and that will conclude our hearing.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Response of Daniel B. Poneman to Question From Senator Murkowski
                         loan guarantee program
    Question 1. Many questions remain as to DOE's interpretation of 
Title 17 provisions from the 2005 Energy Policy Act, specifically on 
the superiority of rights and cross-default issues for projects with 
multiple owners or creditors.
    Given Secretary Chu's desire to issue loan guarantees in the next 
month or two, do you believe the loan guarantee office is doing a 
satisfactory job of interacting with applicants to make sure that their 
questions and concerns are addressed?
    Answer. Secretary Chu has made the loan guarantee program a top 
priority, and has pushed hard to streamline the program and to make it 
more responsive to applicants. If confirmed, I will work closely with 
the Secretary and our Loan Guarantee Program staff to make sure that 
the Department is addressing questions and concerns of applicants in a 
timely manner.
    Response of Daniel B. Poneman to Question From Senator Stabenow
    Question 1. As you may know, Congress passed a provision in the 
Energy Independence and Security Act of 2007 to provide the auto 
industry low cost loans to retool plants for the production of advance 
technology vehicles. What are your views of this program, and when do 
you expect the agency to issue its first loan?
    Answer. I support the Section 136 program and believe that it can 
be an important tool to create jobs and invest in technologies that 
will help reduce carbon emissions and lower our dependence on foreign 
oil. As I understand it, the Department's goal continues to be to issue 
loans in the summer and, if confirmed, I look forward to working with 
the Secretary to meet that goal.
    Responses of Daniel B. Poneman to Questions From Senator Corker
    Question 1. The Global Threat Reduction Initiative program has 3 
competitively awarded small business contracts in place to perform 
activities for the program. Yet, the program has not fully utilized 
those contracts. Each GTRI small business contract has a ceiling of 
$100 million, for a total of $300 million, but only $5.7 million has 
been applied to those contracts to date. What is your opinion of GTRI 
using small business contracts? Do you think they should be used more? 
Please explain.
    Answer. I am not familiar with the details of the GTRI program 
contracts, but I do believe that small businesses have an important 
role to play in providing services to the Department. If confirmed, I 
look forward to examining this issue and working with you to ensure 
that small businesses are used appropriately.
    Question 2. It has been brought to my attention that in recent 
decades, the Department of Energy has greatly increased its oversight 
of the contractors responsible for managing and operating (M&O) the 
national laboratories under M&O contracts. Concerns have been raised to 
me that as a result, decision making within the Department may have 
slowed, and support organizations seemingly have more authority and 
less accountability than the mission organizations, and the amount of 
oversight conducted by the federal staff of the Department's 
contractors is not commensurate with other government/contractor 
relationships.
    In your opinion, has increased DOE oversight of the contractors 
responsible for managing and operating the national laboratories had an 
impact on the timeliness of decision making within the Department, and 
is the relationship consistent with other government/contractor 
relationships?
    Would you be willing to assess the way in which the Department's 
various support organizations, such as the Office of Health, Safety and 
Security (HSS), Office of Engineering and Construction Management 
(OECM), CFO, General Counsel, etc., support the Department's mission 
organizations and determine if changes are necessary to ensure that 
this model is consistent with the original government-owned contractor-
operated (GOCO) model of laboratory governance, which was originally 
designed to bring the best possible scientific and management talent 
and private-sector business practices to the laboratories. And, if 
changes are deemed necessary, would you be willing to make the 
appropriate adjustments?
    Answer. I believe that accountability and oversight of the 
Department's operating facilities and national laboratories are vital 
to ensuring that the Department meets its mission goals. As a matter of 
principle, I believe that any effective contractual arrangement must 
include clear mission statement, scope of work, and milestones, that 
the contractor must be empowered to perform without undue 
micromanagement, but with full accountability and regular oversight of 
performance deliverables and quality. The Secretary has made improved 
management of the Department one of his priorities. In that spirit, if 
confirmed I would certainly be willing to examine the issues you raise 
and make appropriate adjustments.
                                 ______
                                 
   Responses of David B. Sandalow to Questions From Senator Murkowski
                              clean energy
    Question 1. In attempting to address global climate change, a great 
deal of faith has been put into the ability of the United States to 
advance cleaner technologies, and assure their deployment to the 
developing world.
    What role do you see DOE playing in clean technology transfer, 
particularly to the developing world?
    Answer. I believe that DOE can play an important role in promoting 
cooperation on clean energy technologies with the developing world. I 
understand that the Department has ongoing energy partnerships with its 
counterparts in many countries, including in developing countries. If 
confirmed I would work to build on this base of existing relationships 
to help improve processes and procedures with respect to transfer and 
deployment of clean energy technologies.
                               green jobs
    Question 2. In recent months, many have asserted that the ``green 
jobs'' sought through a number of DOE programs, as well as the Stimulus 
and other measures, are incapable of being exported.
    Given the current level of importation associated with batteries, 
wind farm components, and turbines for geothermal steam, do you believe 
that so-called ``green jobs'' are any less susceptible to off-shoring 
than traditional, non-green jobs?
    Answer. In many cases, yes. For example, improving efficiency in 
our buildings--the lowest hanging fruit in terms of reducing greenhouse 
gas emissions and lowering energy bills for consumers--offers great 
potential to create jobs that cannot be outsourced. I believe that 
investments in research, development and deployment of clean energy 
technologies can help to create good new jobs in the United States. 
Restoring U.S. technological leadership in these areas is an important 
component of ensuring that clean energy jobs of the future are U.S. 
jobs.
                              natural gas
    Question 3. Mr. Sandalow, from your writings and published articles 
it is very clear how you feel about oil production, but it is a bit 
less clear how you feel about production of domestic natural gas. In 
your article Ending Oil Dependence for the Brookings Institute, you 
argued against gasoline as a transportation fuel, and instead favor 
electric vehicles and biofuels. How do you feel about compressed 
natural gas as a transportation fuel?
    Answer. I believe compressed natural gas can make an important 
contribution to reducing our dependence on oil as a transportation 
fuel.
                                biofuels
    Question 4a. I appreciate the candid comments you have made on 
corn-based biofuels and am glad that you recognize the need to develop 
advanced feedstocks. While biofuels are not part of the energy bill 
that we are currently working on, I do have several questions for you 
on this topic.
    First, do you support the inclusion of promising new feedstocks, 
such as algae, in the Renewable Fuel Standard? Do you believe it is 
important for the RFS to be technology-neutral?
    Answer. In general I believe that government should set goals and 
allow the private sector to find the best technological solutions. I am 
not familiar with specific issues surrounding algae feedstocks and the 
RFS, but would be eager to work with you on this if confirmed.
    Question 4b. In the past, you have supported the elimination of the 
tariff on imported ethanol. Will you continue to support the removal of 
that tariff if you are confirmed as Assistant Secretary?
    Answer. If confirmed as Assistant Secretary, I would support the 
President's position on this issue. As I've written, this is a complex 
issue.
    Question 4c. In ``Freedom From Oil,'' you also supported a variable 
subsidy for corn-based ethanol production that would range from 70 
cents per gallon when oil prices are at $40 per barrel, to no subsidy 
when oil prices rise above $75 per barrel. Do you still support this 
policy? Would you urge the administration to adopt it, should you be 
confirmed?
    Answer. I believe the idea of a variable subsidy is worth 
consideration. Those specific numbers were offered as an example--I 
don't have a view on what schedule, if any, would be best. Since I 
first wrote on this, several experts have approached me to point out 
that rising oil prices are often associated with higher production 
costs for ethanol, arguing that this undercuts the case for a variable 
subsidy. This is an important point that should be analyzed in any 
future consideration of this issue.
    Question 4d. In order to properly evaluate whether biofuels will 
help reduce greenhouse gas emissions, do you agree that it is important 
to measure the lifecycle emissions associated with their production and 
use, including land-use changes and other indirect factors?
    Answer. I do.
                               blend wall
    Question 5a. As you know, the EPA restricts the amount of ethanol 
that can be blended into regular gasoline to 10 percent or less. Annual 
biofuel production is already on the verge of saturating that 
limitation, however, and within the next few years, the RFS will 
mandate more biofuel production than can legally be blended into the 
gasoline supply.
    How do you believe this so-called ``blend wall'' should be 
addressed? Do you believe that the ethanol content in gasoline can be 
increased without harming hundreds of billions of dollars worth of 
vehicles, equipment, and infrastructure?
    Answer. This is an important question that needs to be carefully 
evaluated. I do not have a view at this time about the impact of 
increased ethanol blends on vehicles and other equipment.
    Question 5b. Will you commit to advising against an increase in the 
10 percent limit until scientific data proves that no damages will 
result from such a decision?
    Answer. If confirmed, I will look into this matter and will provide 
advice to Secretary Chu after consideration of the relevant scientific 
information.
    Question 5c. Some have likened the ``blend wall'' to a 
steeplechase, because this issue will arise repeatedly as RFS volumes 
continue to increase. What strategy will you follow to balance the 
desire to increase biofuel production with the need to protect 
individual property from harm associated with its use?
    Answer. Again, I think this is an important question that needs to 
be carefully evaluated. If confirmed I will work with you, as well as 
my colleagues in the Administration to be sure that we consider the 
issues you raise.
                              domestic oil
    Question 6. Let me ask one clarifying question. You obviously want 
us to reduce oil usage in the transportation sector to make us less 
dependent on foreign oil sources, but market penetration of electric 
cars will not happen overnight. Shouldn't we be attempting to increase 
production of domestic oil supplies in the short-run to provide a 
bridge to the era of renewable energy, especially as a transportation 
fuel? Given the estimates of over 100 billion barrels of oil still 
remaining in America from onshore areas like under the Arctic coastal 
plain, to the OCS off our coasts, why shouldn't we be developing that 
oil now while we push ahead with renewables and alternatives?
    Answer. President Obama has indicated that he is open to increased 
domestic production as part of a comprehensive energy plan. If 
confirmed I will work with you and with others in the Administration on 
this important topic.
                             transportation
    Question 7. You advocate plug-in hybrid vehicles as one of the most 
effective ways for the United States to reduce oil consumption. This 
seems to leave out the aviation and marine industries, which are also 
large consumers of petroleum-based fuels. Which policies would you 
propose or support to reduce fuel consumption in those industries?
    Answer. While cars and trucks account for the lion's share of our 
petroleum consumption, you identify an important issue with respect to 
aviation and marine industries. I strongly support research to develop 
potential alternatives to oil in these sectors, such as biofuels, and 
ongoing work to improve fuel efficiency. I look forward to working with 
you on these issues if I am confirmed.
                        asia-pacific partnership
    Question 8. The Asia Pacific Partnership on Clean Development and 
Climate (Australia, Canada, China, India, Japan, Korea, and the United 
States) works with private sector partners to meet goals for energy 
security, national air pollution reduction, and climate change. The APP 
has eight private sector task forces working on: Aluminum; Buildings 
and Appliances; Cement; Cleaner Fossil Energy; Coal Mining; Power 
Generation and Transmission; Renewable Energy and Distributed 
Generation; and Steel.
    Do you support the previous Administration's work on the Asia 
Pacific Partnership on Clean Development and Climate?

    a. If yes: If you are confirmed, how will you work to advance the 
Partnership?
    b. If no: What do you view as an alternative?

    Answer. I believe the Asia-Pacific Partnership can make an 
important contribution to promoting clean energy and fighting climate 
change. If confirmed, I look forward to learning more about the work of 
the Asia-Pacific Partnership and how best to advance it.
                           clean energy trade
    Question 9. Last year USTR and the European Union submitted a 
proposal to the World Trade Organization to remove barriers to 
international trade in environmental technologies and services. Global 
trade of the goods covered by the proposal totaled approximately $613 
billion in 2006, with some WTO members charging duties as high as 70% 
on certain goods.
    Do you support moving this proposal forward at the WTO? If you are 
confirmed, what role will you play in gathering global support for it?
    Answer. Yes. If confirmed, I look forward to learning more about 
the proposal and how best to advance it.
                       state-owned oil companies
    Question 10. State-owned oil companies control close to 80% of the 
world's estimated 1.2 trillion barrels of proven oil reserves and make 
up 18 of the world's 20 largest oil companies. Beijing is probably one 
of the most active players in locking in resources from around the 
world.
    Should the United States be concerned by the increasing amount of 
leverage that state-owned oil companies, particularly those from China, 
have in the international oil market?
    Answer. Yes, I share this concern.
                international civil nuclear cooperation
    Question 11. Two weeks ago Ambassador Greg Schulte, the U.S. 
Permanent Representative to the UN offices in Vienna and the IAEA, gave 
a speech on behalf of Secretary Chu at the IAEA International 
Ministerial Conference in Beijing. In this speech Ambassador Schulte 
referenced President Obama's call for a new framework for international 
civil nuclear cooperation and described the role of the Global Nuclear 
Energy Partnership's Steering Group in establishing such a framework. I 
realize that much of the GNEP effort has been refocused on research and 
development, but I would agree with Ambassador Schulte that diplomatic 
efforts such as the GNEP Steering Group play a central role in ensuring 
the responsible development of a safe and secure world-wide nuclear 
energy enterprise. This is particularly true today with so many 
countries considering new or expanded civilian nuclear power programs 
whether or not the U.S. chooses to remain engaged.
    Can you briefly describe for this Committee the current status of 
the Global Nuclear Energy Partnership Steering Group? If you are 
confirmed as Assistant Secretary of Energy for International Affairs 
and Domestic Policy, what steps will you take to ensure that the 
Department of Energy continues to support the Steering Group and 
provides U.S. leadership in this area?
    Answer. I understand that progress was made at the recent Global 
Nuclear Energy Partnership Steering Group meeting in several areas, 
including key areas of focus for the expert working groups on Reliable 
Nuclear Fuel Services and Infrastructure Development. If confirmed, I 
will work with Secretary Chu and other Administration officials to 
determine the best approach for advancing the Administration's 
nonproliferation and energy priorities through participation in the 
international activities of GNEP.
                          offshore production
    Question 12a. Last summer, with oil prices well above $100 per 
barrel, you criticized the push to increase offshore production. You 
stated that any gains in offshore production would be outweighed by an 
increase in environmental risk. That argument minimizes the importance 
of decades of safety improvements and technological advancement, and it 
also relies on outdated resource estimates. Is it fair to make such an 
assessment without even knowing the full extent of our nation's 
offshore resources?
    Answer. I strongly agree that safety improvements and technological 
advances have reduced the environmental risk in offshore drilling 
during the past few decades. I believe in assessing our nation's 
offshore resources as part of a comprehensive domestic energy plan.
    Question 12b. Do you think that restricting domestic development 
will force lower domestic oil consumption?
    Answer. No.
    Question 12c. If domestic oil consumption remains about the same as 
it is today, does the fact that most of our oil will come from foreign 
production, outside of American environmental regulation, make it more 
environmentally-responsible?
    Answer. No.
    Question 12d. As we consider policies to reduce oil consumption--
which you might call ``freedom from oil''--do you believe that we 
should do everything possible to first ensure our freedom from foreign 
oil?
    Answer. I believe our dependence on foreign oil is a very serious 
problem. In part because oil is a fungible product traded on a global 
market, I believe the most fundamental problem is our near-total 
dependence on oil in our cars and trucks. If most cars and trucks also 
ran on other fuels--such as electricity, biofuels and natural gas--our 
dependence on foreign oil would decline dramatically.
    Question 12e. Would you prefer the price of oil to be $50 per 
barrel, or $100 per barrel?
    Answer. $50.
                                 ______
                                 
      Responses of Rhea S. Suh to Questions From Senator Murkowski
                   abandoned well clean-up in alaska
    Question 1. As you set about producing an FY11 budget I would just 
like to encourage you to consider building additional funding into the 
BLM base for the cleanup of federally produced abandoned oil wells in 
Arctic Alaska. Back in the late 1970s and early 80s there was an 
exploratory program in NPR-A conducted under contract for the 
government and there is an estimated $150 million worth of work needed 
to better cap those abandoned wells. I appreciate the $9 million in the 
FY09 budget for such cleanup efforts, but I hope that you will 
generously fund such efforts in the future since the responsibility 
clearly is with the government.
    Do you have any general comments on abandoned well cleanup and how 
you feel it fits in your priorities for future funding?
    Answer. I understand that the Department of the Interior and the 
Bureau of Land Management (BLM) share your concerns about the 
importance of cleaning up ``legacy'' wells on Alaska's North Slope, and 
the urgency of this effort because of the risks posed by increasing 
coastal erosion. I am advised that the BLM has recently completed 
remediation of the Atigaru well, and that the next priority is 
remediation of the Drew Point well during the winter of 2009-2010. I 
also understand that the BLM is funding the Drew Point well remediation 
through the American Recovery and Reinvestment Act (ARRA), and that for 
this reason, the President's Budget Request for FY 2010 does not 
include funding for the Drew Point project. Although I cannot make 
budget commitments on behalf of the Administration, if I am confirmed 
as Assistant Secretary for Policy, Management, and Budget, I will work 
closely with the Secretary to assure that this program is examined 
carefully as the Department formulates future budget requests.
                     north slope science initiative
    Question 2. Back about 5 years ago a number of federal agencies--
including BLM and the F&WS--joined with Alaska state agencies and local 
governments to create a North Slope Science Initiative to find funding 
for scientific studies of importance for resource development in Arctic 
Alaska. But the effort has never been built into the budget base. As 
you work on your FY11 budget, I hope you will find a permanent place 
for the NSSI. My general question is, what are your priorities for 
scientific funding in your Department's budget process?
    Answer. Like President Obama, I believe that understanding of 
science, technology, and innovation will be key to strengthening our 
economy and forming policy that will work for the American people. The 
President has called for a national strategy to nurture and sustain a 
culture of scientific innovation. If confirmed as Assistant Secretary 
at the Department of the Interior, I will commit to a fair and balanced 
approach to consideration of funding needs, including science.
                          previous employment
    Question 3. One of the often-repeated frustrations by many 
Democratic members on this Committee over the previous eight years were 
the close ties some nominees for the Department of the Interior had 
with the oil, gas, or other commodity industries.
    Ms. Suh, you have very close ties to a number of environmental and 
preservation groups. In fact, according to your background papers, you 
were a program officer and manager for two foundations that provided 
significant financial resources to a number of advocacy groups who have 
and likely will continue to attempt to drive changes in federal land 
policy and federal land management. As a manager, you helped to make 
decisions on which groups and what projects received funding form the 
William and Flora Hewlett Foundation and the David and Lucile Packard 
Foundation. More specifically, you worked on the environmental programs 
at these foundations.
    While you were not a lobbyist, you funded organizations to lobby 
and are thus, in my mind, an accessory to lobbying the very agency you 
have been nominated to work within.
    I think that all Members of this Committee understand that 
foundation funding is critical to the survival of many of the advocacy 
groups like the Southern Utah Wilderness Alliance, or the Southeast 
Alaska Conservation Council, or the Idaho Conservation League.
    At the same time, I think that all Members also understand that 
many of these foundations provide important funding to many other 
groups, universities, and even local governments to help them respond 
to new laws, regulations, and demands.
    Ms. Suh--I have a series of questions that I would like you to 
answer with a simple yes or no answer and then I will get into a couple 
of questions that will require a little more in terms of responding.
    Given the direct financial support you had some responsibility of 
steering to groups that come before the Department of the Interior, do 
you intend, if confirmed, to recuse yourself from meeting with any of 
the groups that received funding from either the William and Flora 
Hewlett Foundation and the David and Lucile Packard Foundation? More 
specifically, from the environmental programs at those two foundations?
    Answer. Let me first clarify a point about the funding granted by 
the two foundations in which I have worked. Both the Hewlett and 
Packard foundations do not provide funds to organizations for lobbying 
purposes and are prohibited from doing so by the Internal Revenue 
Service regulations that govern charitable giving. I have consulted 
with the ethics officials at the Department of the Interior, and they 
have informed me that they do not think there would be an appearance of 
a conflict of interest in meeting with groups that have received 
funding from these foundations.
    As I have stated in my ethics agreement addressed to the designated 
agency ethics official at the Department of Interior, I will comply 
fully with the ethics policies set forth in 5 C.F.R. Sec.  2635.502 and 
upon confirmation, I will resign from my position as a program manager 
with the David and Lucile Packard Foundation. In addition, for a period 
of one year after my resignation, I will not participate personally and 
substantially in any particular matter involving specific parties in 
which the Foundation is a party or represents a party, unless I am 
first authorized to participate pursuant to 5 C.F.R. Sec.  2635.502(d).
    Question 4a. In March 2005, you participated in an online debate on 
environmentalism with Michael Shellenberger and Ted Nordhaus. In that 
online forum you said some very interesting things that I would like 
you to help us understand. First you said: ``Ultimately, I think we all 
strive for (re)establishing strong environmental/conservation values to 
the point where they are seen as the `political third rail. . . .' ''
    In making the grants that you made, to what extent were you 
attempting to fund groups that would make environmental values a 
`political third rail' for those of us in congress that are charged 
with overseeing the Department of the Interior?
    Answer. Let me first underscore the fact that I have the utmost 
respect for and understanding of the importance of the oversight 
Congress provides for the Department of the Interior. From my time as a 
Senate staffer for Senator Ben Nighthorse Campbell in the 104th 
Congress, I gained a deep appreciation of this oversight role. During 
my tenure with the Senator, I supported his work on the Energy and 
Natural Resources Committee and did so both from within the Minority 
party and then, after 1995, in the Majority party. From this 
experience, I gained not only an appreciation of the critical role of 
Congress in supporting and overseeing the mission of the Department of 
the Interior, but also a unique perspective on the issues that are 
critically important to both parties and to various stakeholders on 
natural resource issues. This experience is the foundation for my 
beliefs and optimism about conservation and natural resource policy.
    Within the context of this online debate, I was articulating my 
opinion that environmental politics for the last several decades have 
become overly partisan and environmental debates seem to devolve too 
quickly into polarizing positions. These positions often result in 
stalemate situations where ``winners'' or ``losers'' are too often 
chosen by courts. In my remarks, I was not referring to the appropriate 
and legal role Congressional oversight plays in ensuring accountability 
by federal land management agencies, but was focusing on the sad fact 
that environmental groups or commodity user groups are pigeonholed and 
categorized in a way (and often by each other) that I believe 
diminishes the real values and needs of our communities.
    Conservation values are broadly held by Americans: we love to hunt 
and fish, we want clean water to drink and air to breathe and we want 
our children to grow up in communities that are vital and sustainable. 
Conservation debates should explore the opportunities growing from 
these shared values and should help us collectively define a better 
vision for our future. I hope that if confirmed, I can work with the 
Department and Congress to develop new opportunities for proactive and 
positive decisionmaking.
    Question 4b. Can you explain why you wanted Congress to be so 
skittish about addressing environmental values?
    Answer. My discussion points were focused on stakeholder groups, 
not Congress. Specifically, I was encouraging the broader community to 
be more focused on the values that could bring us together rather than 
on politics that would perpetuate divisiveness.
    Question 4c. You also said: ``The whole inside-the-Beltway game has 
its obvious drawbacks right now. However, to be fair, I think that even 
though things are bleak, we have to continue to put up a fight in D.C. 
There will be huge battles over the Clean Air Act, Endangered Species 
Act . . . and as we saw from the Arctic debate, we need to make a 
strong showing, even if we ultimately fail.''
    Understanding you said this in 2005 when Republicans controlled the 
House, Senate, and White House, do you think that the commodity user 
groups could use some foundation support to help them withstand the 
onslaught of environmental changes that have been announced by the 
Department of the Interior up to this point, as well as those that are 
likely to be announced over the next four years?
    Answer. There are thousands of foundations throughout the country 
and the trustees or benefactors of each foundation determine how to 
best allocate their charitable dollars. So while I am not in the 
position to advocate for new categories of funding, I do think that it 
is important for foundation staff to recognize and have an appreciation 
of the broader public debate and of the interests of all stakeholders 
in any given area of focus.
    Question 4d. You also wrote: ``How can you turn something like the 
politics of environmental protection in Alaska around? Ultimately, I 
don't think it is going to be by getting more people to walk the halls 
of Congress--perhaps more people to walk the roads of Fairbanks?''
    I am curious, what specifically did you find wrong with the 
politics of environmental protection in Alaska in 2005?
    Answer. As you know well, Alaska has been the focus of some of the 
most contentious environmental debates. I believe that these 
environmental debates have been overly polarized and have too often 
resulted in lengthy and costly legal battles without addressing long-
term needs or solutions. My point on this question was to draw specific 
attention to the need for the national environmental community to begin 
to build a greater capacity for work in and understanding of local 
communities in Alaska. As I noted in my personal statement during my 
confirmation hearing, 1 believe strongly that the most successful and 
durable conservation solutions are those that have included broad 
public input, including local knowledge to create place-based solutions 
for conservation issues.
    Question 4e. And more importantly, if confirmed as the Under 
Secretary for Policy and Budget, what changes to environmental 
protection for Alaska do you plan to advocate for?
    Answer. I understand the importance of this question to you and I 
recognize that the Department has a special relationship with Alaska 
given the immense presence the Department has in your state. I know 
that the Department implements many and diverse Alaska-specific laws 
and programs, and I look forward to becoming familiar with them if I am 
confirmed.
    I think it is important to ensure that we have a balanced policy 
that recognizes the importance of Alaska's vast storehouse of natural 
resources to the nation's economic future, while also honoring the 
treasures protected by Congress and previous administrations. 
Implementing one of these tasks should never preclude implementing the 
other.
    As I previously noted, it is my belief that the stewardship role 
entrusted to the Department is often best accomplished by including 
broad public input and creating solutions informed by local knowledge. 
We also must recognize, however, that the Department's decisions must 
be implemented in accordance with applicable laws. Good decision-
making, including careful regard for decision-making processes, can 
keep important decisions from ending up in and being made by the 
courts. In the case of development, waiting for the judicial process to 
run its course can delay development for years and make long-range 
planning difficult for both the Department and industry.
    Question 4f. You also said: ``Indicators of progress might not be 
the passage of a new hill to protect the Tongass (to use the Alaska 
analogy again), but rather indicators of social and/or political change 
that are meaningful.''.... ``For example, on many federal policies we 
have relied on the public comment process to have our voices heard. 
Organizing people to sign letters or send faxes (through an 
increasingly automated system) worked pretty effectively for a while. 
Now, however, we are seeing that public comments don't really seem to 
hold the weight they once did. Thus, the question really is whether the 
strategy is actually going to move you toward the solution you seek.''
    In your capacity as Under Secretary for Policy and Budget, if 
confirmed, you will not directly oversee the Tongass National Forest, 
but you will certainly have the ability to shape what does and does not 
occur in that national forest through your relationship with the U.S. 
Fish and Wildlife Service.
    What are the specific changes that you believe are needed with 
regard to the management of the Tongass National Forest?
    Answer. As a program officer for both the Hewlett Foundation and 
now the Packard Foundation, I was able to successfully recommend seed 
grants to support the Tongass Roundtable process (primarily through the 
Nature Conservancy). I believe this process currently represents one of 
the most promising models for developing comprehensive, collaborative 
and long-term solutions for conservation issues in the nation. While it 
has not been an easy road, and certainly there are still many 
challenges ahead, it is an example of what can happen when you bring 
people together to collectively define a vision for their future. And 
this future is dependent on the Forest Service implementing a 
management plan that supports the unique values of the Tongass National 
Forest--which could include the values of timber harvesting, unique 
species and ecosystems, carbon sequestration, tourism, recreation, 
Alaska Native heritage and subsistence uses.
    Question 4g. In 2005 you opined that the public comment process and 
letter writing did not hold the weight it once did. What will your 
policy be regarding letter writing campaigns? Will you make policy 
decisions based on the number of letters or faxes you receive, or on 
sound science and economic considerations?
    Answer. As I have stated earlier, I am a strong believer in robust 
public participation in policy processes. Letters (or faxes, emails, or 
telephone calls) will always serve as an important element to 
understanding the views and opinions of the American public on any 
given subject. These inputs, alongside public hearings, public comment 
periods, and on-going discussions with local communities, are a few of 
the many tools that should be a part of ensuring the ability of the 
public to engage in the decision-making process. In addition, these 
processes must be built upon the best available scientific and economic 
data available.
    Question 5. If confirmed you will oversee the department's budget 
preparation including recommendations to the Administration concerning 
funding for each of the agencies within the department. Over the last 
four or five decades it has become apparent that the Park Service 
budget is significantly higher on a per-employee or per-acre basis than 
any of the other land management agencies within the department. To 
some extent this is the result of the budget requests that the 
department has submitted over the years, as well as Congressional 
appropriations.
    As the department's budget officer will you commit to developing an 
analysis to be shared with the Congress that examines this issue and 
recommends ways to better balance the department's budget requests to 
that all the agencies get a similar amount of funding on a per-acre and 
per-employee basis?
    Answer. I appreciate the importance of funding all of the land 
management agencies within the Department of the Interior and their 
important programs for stewardship of lands and resources. I am not yet 
familiar with the details of the Department's budget nor with the 
approach related to determining the appropriate funding level for land 
management agencies. I will commit to examining this issue and 
reporting back on the results if I am confirmed.
      Responses of Rhea S. Suh to Questions From Senator Barrasso
    Question 6a. One of the greatest duties of federal employees is to 
uphold the public's trust. You have been nominated for a position of 
responsibility for over 70,000 employees. If confirmed, 1 hope that you 
will be keenly focused on upholding the public's trust in the 
Department of Interior. This is a significant challenge, particularly 
in a Department as vast and important as DOI. One challenge that you 
must face head-on is the tendency for federal employees to ``fail 
upward''. In other words, the tendency for subpar employees to be moved 
from the duty station to duty station, rather than be appropriately 
reprimanded or removed from government service. These subpar employees 
seem to move around the country year-after-year, through transfers or 
promotions. This only hurts taxpayers, public land users and the 
thousands of invaluable public servants employed by the Department.
    What concrete steps will you take to address this trend in 
personnel management?
    Answer. I consider the public's trust in the Department of the 
Interior and its employees to be of the utmost importance. It is 
critical that we have productive and effective employees within the 
Department. Your question raises two separate issues, conduct and 
performance. In terms of issues of conduct, I will review the current 
conduct and discipline policies to ensure that appropriate policies are 
in place. Managers and supervisors throughout the Department need to be 
fully aware of the rules, principles and guidelines to be followed in 
disciplining Federal employees and have the skills and support they 
need when action is warranted.
    How well an employee performs their job is addressed through 
performance management. I will review the performance management system 
to determine where improvements can he made, make the improvements, and 
train and hold Interior managers accountable for dealing with poor 
performance.
    Question 6b. What timeframe will you set for taking these steps?
    Answer. I will make this a priority once I am confirmed.
    Question 7. We see a growing trend of field offices in Wyoming 
being bogged down in limitless FOIA requests from activist groups. 
These groups are using the FOIA process not simply to obtain 
information. They are manipulating the system in order to paralyze the 
agencies. By overloading local offices with paperwork, they are 
preventing timely decision making and on-the-ground management. If 
confirmed, how will you direct the bureaus to address the problem of 
paralyzing FOIA requests?
    Answer. As you are aware, the Freedom of Information Act (FOIA) 
establishes a number of specific requirements on federal agencies when 
responding to requests for information from the public, including a 
requirement to conduct a reasonable search for documents reasonably 
described in the request. Compliance with these requirements 
occasionally creates a burden on agency personnel who must search for 
responsive documents and otherwise process the request. If confirmed, I 
commit to instruct the bureaus to follow the mandates of the FOIA when 
applicable. That said, I expect to also comply with the provisions of 
the OPEN Government Act of 2007, which provide that the Chief FOIA 
Officer shall be responsible for efficient and appropriate compliance 
with the FOIA and for recommending adjustments to agency practices, 
policies, personnel, and funding necessary to improve implementation of 
this section. When the Chief FOIA Officer identifies improvements and 
adjustments to the FOIA process at the Department, including any 
adjustments that would minimize the burdens on bureau personnel, I will 
fully support these efforts to improve FOIA processing.
                                 ______
                                 
    Responses of Michael Connor to Questions From Senator Murkowski
    Question 1. Please describe your views regarding the current 
mission of the Bureau of Reclamation. As Commissioner, do you envision 
a new mission for the Bureau of Reclamation on how it develops and 
manages water?
    Answer. Reclamation was established more than one hundred years ago 
with a mission centered on the construction of irrigation and 
hydropower projects, many of which are still functioning today. In the 
107 years since its creation, Reclamation's mission has evolved to 
include municipal and industrial water supply projects, water 
recycling, ecosystem restoration, site security, and the protection and 
management of water supplies. As part of this evolution, Reclamation is 
looking for ways to better address environmental impacts, changing 
demographics, and periodic drought in the West. The effects of climate 
change on water resources pose new challenges that Reclamation must 
also address in fulfilling its mission. I believe Reclamation needs to 
work closely with its contractors, the states, environmental interests, 
Indian tribes, and Congress as it carries out its core 
responsibilities. If confirmed as Commissioner, I will support these 
efforts and help ensure that Reclamation's programs continue to serve 
the needs of an evolving West.
    Question 2. Please describe how you intend to prioritize stimulus 
funding for the backlog of water recycling projects at the Bureau of 
Reclamation.
    Answer. The Recovery Act directed that Reclamation devote a minimum 
of $126 million for authorized water recycling projects. The Department 
announced April 15 that a total of $135 million of Reclamation's $1 
billion Recovery Act appropriation would be dedicated to these 
projects, which will make significant progress on the backlog. These 
projects are being rated and ranked based on criteria which have been 
publicly announced. I am advised that specific project awards will be 
announced this month.
    Question 3. Over the next few years, as climate issues are 
addressed, the Bureau of Reclamation will play a key role in analyzing 
the available data, and its likely impact on water resources. Please 
describe how you intend to address the impact of climate change on 
these resources.
    Answer. I believe strongly that wherever possible, climate change 
science should be incorporated into water resources decisions and 
planning. I understand Reclamation has a number of research activities 
underway in partnership with other federal agencies aimed at expanding 
the body of climate change information. I agree that the collection and 
analysis of this information is critically important for modern water 
managers. Congress has directed Reclamation to assess the impact of 
climate change on its operations and plan accordingly. If confirmed, I 
will support these and other initiatives to address climate change.
    Question 4. Will additional water resources need to be developed? 
If so, what options are currently available to augment these resources?
    Answer. Additional water resources may need to be developed, and 
that may occur through many different means. As noted earlier, water 
conservation can play a key role in providing new supplies. Congress 
has authorized long-term investments in water conservation and 
efficiency projects. This same law authorizes Reclamation to study new 
ground or surface water storage proposals as a means to address the 
impacts of climate change. Finally, continued efforts to develop cost-
effective desalination technologies may ultimately yield additional 
useable water resources.
    Question 5. Please describe how you, as commissioner, intend to 
address the relationship between energy and water within Reclamation.
    Answer. There is a clear nexus between water use and the energy 
needed to make that water available. Pumping and delivering water, and 
recycling brackish and wastewater are energy-intensive. Current 
desalination technologies are energy- and capital-intensive. Conserving 
water conserves energy. I believe that water conservation is one of the 
most promising avenues for overall energy conservation, and if 
confirmed, I will work aggressively in this arena. I will also work to 
assure that Reclamation's hydropower assets continue to provide 
essential energy supplies in a safe and environmentally sound manner in 
the interest of the American public. I think that Reclamation should 
look for opportunities to integrate renewable energy generation into 
its base operations. Finally, through an active desalination research 
and demonstration program Reclamation could help to reduce the large 
energy costs associated with desalination, leading potentially to 
increased public acceptance of desalination technologies.
    Question 6. Currently there are several agencies and departments 
within the executive branch that focus on water. Please describe the 
role the Bureau of Reclamation will play in working with these other 
agencies to ensure that there is collaboration and cooperation in 
integrating policy on climate, energy, and water.
    Answer. First, Reclamation needs to continue to be an active 
participant in an aggressive science program to continue efforts at 
better understanding the effects of climate change on water resources. 
Second, based on the best available scientific data, Reclamation needs 
to continue working closely with affected interests to assess the need 
to modify its operations and infrastructure to adapt to changes in 
hydrology and climate. Finally, Reclamation needs to continue its 
efforts to help water users conserve water and operate more 
efficiently. This latter effort will help the West address many of its 
future water supply challenges, including those that result from 
climate change. I believe that transparency and proactive communication 
are essential to successful collaborative relationships with fellow 
federal agencies, and I will strive to foster these relationships if 
confirmed.
     Responses of Michael Connor to Questions From Senator Barrasso
    Question 7a. You may be aware that Yellowtail Dam, managed by the 
Bureau of Reclamation on the Bighorn River, forms Bighorn Lake. The 
lake is the heart of Bighorn Canyon National Recreation Area, managed 
by the National Park Service, that spans the border between Montana and 
Wyoming. When the dam was built, the federal government condemned 
prosperous farms and ranches in Big Horn County Wyoming. The community 
was promised a tourism economy to replace the condemned agricultural 
land. Wyoming stakeholders observe the management of the dam and the 
recreation area carefully in hopes that the government will one day 
make good on this promise.
    Yellowtail Dam presents unique management challenges for the 
Bureau. The upstream lake, wildlife habitat and fishery are dependent 
upon ample water levels behind the darn. The downstream trout fishery 
and recreation area are dependent upon well-timed releases from the 
dam. These are distinct and contradicting purposes. Management of the 
dam requires balancing the interests of users upstream and downstream 
in Wyoming and in Montana, respectively. The dam also serves power 
customers and tribal users.
    If confirmed, how will you direct Bureau of Reclamation employees 
to handle this management challenge?
    Answer. I am informed that Reclamation has established a Long Term 
Issues Group together with the National Park Service at Yellowtail Dam 
which includes participation from local interests and relevant state 
agencies. The group provides a forum to address the multi-purpose 
functions of the Dam, and I believe this to be a sound approach. If 
confirmed, I will work to foster this collaborative approach that 
considers the needs of all stakeholders in the management of Yellowtail 
Dam and the Bighorn Canyon National Recreation Area.
    Question 7b. Additionally, there is a need for improved 
coordination between the Bureau of Reclamation and the National Park 
Service. In fact, there is an MOU in place between the agencies for 
management of the dam and National Recreation Area that is often 
overlooked.
    What steps will you take address the need for coordination with the 
National Park Service? (Please be specific.)
    Answer. I am advised that as the manager of the Bighorn Canyon 
National Recreation Area and fellow federal participant in the Long 
Term Issues Group, the National Park Service establishes reservoir 
elevation targets to meet their resource management objectives. 
Reclamation considers those needs along with the needs of the other 
stakeholders and customers in making operational decisions at 
Yellowtail. If confirmed, I will ensure that this coordination 
continues.
    Question 7c. How will you direct local-level Bureau of Reclamation 
employees to handle this coordination? (Please be specific.)
    Answer. Reclamation's Montana Area Office is responsible for the 
coordinated operations of Yellowtail Dam. If confirmed I will ensure 
that they fulfill these coordination responsibilities and continue to 
explore opportunities to maximize benefits for all users at Yellowtail 
Dam.
     Responses of Michael Connor to Questions From Senator Sessions
                             fiscal issues
    Question 1. Reclamation has received data that indicates the costs 
of its projects more than double when steel pipe has no competition. To 
my knowledge, Reclamation has never disputed this information. Before 
Reclamation changed the Technical Memorandum, it routinely cited the 
importance of competition and cost concerns. What role does competition 
and an analysis of the cost-effectiveness of a project and the 
materials used in a project play in Reclamation's decision-making?
    Answer. I am informed that Reclamation considers several factors in 
selecting materials, such as cost, performance, long-term reliability, 
availability, ease of replacement or repair, and other factors. 
Competitive solicitation processes are typically used to select 
materials for a particular specification, with the selection based on 
products that best meet the technical requirements of that 
specification.
    Question 2. Has Reclamation evaluated the effect of the Technical 
Memorandum on the ability of Reclamation to provide water in a cost-
effective manner?
    Answer. I am advised that the Technical Memorandum (TM) was 
prepared in response to direction in House Appropriations Committee 
Report 108-212, to ``establish good engineering practices which address 
the long-term value and cost effectiveness of facilities constructed 
over time.'' Congressional direction at the time stated that, 
``[A]dditional work is needed to develop a more definitive corrosion 
standard on which to decide the best product for a particular 
application.'' I am further advised that Reclamation considers the use 
of bonded dielectric coatings and cathodic protection for all metallic 
pipe in highly corrosive soils a worthy investment to enhance each pipe 
option's ability to provide reliable performance for the duration of 
its service life.
    Question 3. Has Reclamation performed an analysis of whether the 
increased costs caused by the requirement to use bonded coatings versus 
polyethylene encasement on ductile iron pipe provides benefits that 
outweigh the costs?
    Answer. I am not aware of any specific analysis that has been 
performed of the benefits versus the costs of bonded coatings versus 
polyethylene encasement on ductile iron pipe. However, I am informed 
that material costs factor into Reclamation materials selections as one 
of many considerations. Further, I am advised that Reclamation 
maintains an active dialogue with organizations interested in pipe 
materials, such as the Ductile Iron Pipe Research Association (DIPRA) 
and National Association of Corrosion Engineers (NACE) to share the 
latest information on this and other issues related to corrosion 
mitigation on buried metallic pipe.
    Question 4. Did Reclamation provide the National Academies' 
Committee with any guidance about whether the National Academies' 
Committee should evaluate economics in its review of the Technical 
Memorandum?
    Answer. I did not participate in the National Academies' review 
process, but I am advised that the National Academies review focused on 
two questions: 1. whether polyethylene encasement with cathodic 
protection works on ductile iron pipe installed in highly corrosive 
soils; and 2. whether polyethylene encasement and cathodic protection 
can reliably provide a minimum service life of 50 years. I further 
understand that the NAS review was structured to allow DIPRA and others 
to provide additional information they felt was appropriate for NAS to 
consider, which could include information about economic 
considerations.
    Question 5. It is my understanding that the entities receiving 
Reclamation funding own the pipeline after the repayment period. Why 
does Reclamation not allow the owner of a project to determine the best 
material for its projects?
    Answer. As a federal agency Reclamation constructs projects to 
carry out Congressional intent behind the authorization and 
appropriation of funds. Reclamation retains an active interest in the 
reliability of the projects at least through the project repayment 
period (typically 50 years) or beyond, depending on a project-specific 
authorizing legislation. I am advised that Reclamation's 50 year 
service life requirement for pipelines reflects this interest. I also 
understand that Reclamation works with the entities that receive 
funding for projects to be constructed under Reclamation's authority on 
design and construction issues.
    Question 6. It is my understanding that it is reasonable to assume 
that water leaks will occur on a pipeline and that entities include 
maintenance funds in their budget. Why should an owner of a 
Reclamation-funded pipeline not be able to evaluate all of the costs of 
potential pipe materials (initial costs, maintenance costs, etc.) to 
determine the best material for its end-users taking into account their 
particular situation?
    Answer. I am informed that Reclamation often considers this cost 
information in the selection of materials and works with the entities 
that receive funding for projects on design and construction issues. 
Reclamation makes decisions based on the best available scientific 
information and engineering experience. As noted above, Reclamation 
retains an active interest in the reliability of the projects at least 
through the project repayment period (typically 50 years) or beyond, 
depending on project-specific authorizing legislation.
    Question 7. Many utilities and entities across the country use 
their buried pipe as assets for financing. Reclamation has taken the 
position that the corrosion method of choice in the water works 
industry--polyethylene encasement--is not acceptabe in all soil 
environments. Has Reclamation considered the effect that this decision 
may have on the ability of entities to receive financing or the 
detrimental effect this decision may have on the valuation of 
underground assets throughout the United States?
    Answer. I do not have information on the ability of entities to 
secure funding based on the financial community's reaction to 
Reclamation's decisions or documents, but I am advised that Reclamation 
has not been made aware of any financing issues caused by its policy on 
materials for pipelines.
                                process
    Question 8. Reclamation invested more than $100 million in 
polyethylene-encased ductile iron pipe before it changed the Technical 
Memorandum. When reviewing the previous Technical Memorandum, 
Reclamation contacted numerous utilities throughout the country but did 
not contact the Reclamation-funded projects that used polyethylene 
encasement to get their opinion of polyethylene encasement, which is 
positive. Why did Reclamation not contact the most relevant entities 
for its inquiry?
    Answer. I do not have experience with the process leading up to 
Reclamation's 2004 Technical Memorandum (TM) and at this time I do not 
have information on which entities were most relevant for Reclamation's 
corrosion considerations. I would be willing to look into this matter 
if confirmed.
                     use of polyethylene encasement
    Question 9. Reclamation has indicated that the Technical Memorandum 
is not a standard but a set of guidelines. May a Reclamation-funded 
project use polyethylene-encased, cathodically-protected ductile iron 
pipe in all soil environments?
    Answer. I am advised that in appropriate circumstances, it is 
possible for a project to obtain an exception from the guidelines 
contained in the TM.
    Question 10. If so, are there any aurthorizations required?
    Answer. I am advised that the Reclamation director with 
programmatic responsibility for the project must approve the proposed 
exception.
                       national academies' review
    Question 11. Reclamation has taken the position that its ``target 
performance level is zero external corrosion induced leaks/ruptures/
failures which would require the pipeline to be taken out of service 
during the minimum service life (i.e. 50 years).'' See Reclamation 
Letter to the National Academies' Committee, August 21, 2008, at 2.
    Reclamation funds water projects in rural areas. It is a given that 
water pipes will leak at some point, and operations budgets account for 
this. Do you believe that a standard of zero leaks cuased by external 
corrosion in 50 years is a reasonable standard for water pipes?
    Answer. I believe that the target performance level is reasonable 
in light of the types of pipelines Reclamation typically constructs,b 
ut one which may not always be achieved due to a variety of factors 
including unseen imperfections and the number of variables involved 
with pipe installation in the field.
    Question 12. Has Reclamation used the zero corrosion induced 
leakes/ruptures/failures standard, which would prevent a pipleline from 
being taken out of service in 50 years, to evaluate the pipe materials 
it will allow on its projects?
    Answer. I am advised that this is a target performance level upon 
which Reclamation bases its recommended corrosion mitigation methods 
for all buried metallic pipelines.
    Question 13. What would it cost for a pipeline to ensure that it 
could have no external corrosion leaks in 50 years?
    Answer. It is not possible to answer this question without more 
specificity regarding the length of the pipe, site conditions, 
operations criteria, and other factors. However, according to the 
quotation that you cite, Reclamation is not aiming for zero leaks in 50 
years. The stated target performance level is no leaks/ruptures/
failures which would require the system to be taken out of service in 
this 50 year period. I am advised that the goal is to postpone 
corrosion induced major structural failures of the pipeline for at 
least 50 years.
    Question 14. During the National Academies' review, ``[t]he 
Committee then asked if Reclamation would accept a similar failure rate 
for ductile iron pipe installed in severely corrosive soils with 
polyethylene encasement and cathodic proection as we would get from 
steel pipe installed in severely corrosive soils with a bonded 
dielectric coating and cathodic protection.'' Id. Reclamation agreed 
this was a reasonable benchmark but did not have any data on the 
performance of steel pipe with bonded coatings in highly corrosive 
soils. Id. at 3.
    For the past five years, Reclamation has required the ductile iron 
pipe industryo provide significant data regarding the effectiveness of 
polyethylene-encased, cathodically-protected ductile iron pipe in 
``highly corrosive'' (2000 ohm-cm) soils. Why does Reclamation not 
have similar information regarding the effectiveness of steel pipe with 
bonded dielectric coatings in ``highly corrosive'' soils?
    Answer. I am advised that Reclamation's requests for data from 
DIPRA have been designed to collect information which could address the 
concerns voiced by many throughout these industries regarding the 
effectiveness of polyethylene encased ductile iron pipe in general, and 
specifically, polyethylene encased ductile iron pipe installed with 
cathodic protection systems in highly corrosive soils. I understand 
that engineers and pipe experts have not raised similar concerns about 
the performance of cathodically protected steel pipe with bonded 
dielectric coating installed in highly corrosive soils.
    Question 15. Why does Reclamation not require any data regarding 
the effectiveness of steelipe in ``highly corrosive'' soils?
    Answer. As stated in my response to question 14, I am advised that 
Reclamation's requests for data from DIPRA have been designed to 
collect information that could address concerns raised by people in 
these industries. I am informed that Reclamation has been open to 
dialogue with all pipe manufacturers and the National Academies since 
the 2004 TM was issued.
    Question 16. Instead of the requested data, Reclamation provided 
the National Academies' Committee with the performance data of DOT-
regulated steel pipelines carrying natural gas in unknown soil 
environments because ``this database is the best source of quantitative 
data on this issue to date.'' Id.
    The Technical Memorandum regulates water systems. Why is data 
regarding regulated oil or gas pipelines relevant?
    Answer. I am informed that Reclamation provided the most 
appropriate data available which could be used to meet the information 
needs of the Academies within the timeframe of the NAS review.
    Question 17. Does Reclamation believe that its water pipelines have 
the same oversight and maintenance requirements as regulated oil and 
gas pipelines?
    Answer. I am not at this time aware of how Reclamation's policy on 
water pipelines compares to the oversight and maintenance requirements 
of oil and gas pipelines.
    Question 18. Does Reclamation believe that its water pipelines 
should have the same oversight and maintenance requirements as 
regulated oil and gas pipelines?
    Answer. As stated earlier, I am informed that Reclamation provided 
the DOT data because ii was the most appropriate data available which 
could be used to meet the information needs of the Academies within the 
timeframe of the NAS review. It is my understanding that by providing 
this data, Reclamation was not suggesting that Reclamation water 
pipelines and regulated oil and gas pipelines should have the same 
oversight and maintenance requirements. I am further advised that 
Reclamation's focus on the issue of corrosion mitigation for its buried 
metallic pipe has been and continues to he on the ability of its 
pipelines to provide a minimum 50 year service life. Facility 
maintenance reviews of Reclamation projects are conducted at standard 
intervals, but oversight and maintenance requirements on particular 
project features vary depending on the project.
    Question 19. Reclamation has repeatedly emphasized that the 
Technical Memorandum only governs ``highly corrosive soils.'' Why is 
the DOT data regarding the performance of steel pipe in unknown soils 
relevant?
    Answer. I am advised that the TM addresses all soil types, and that 
the NAS review was focused on the performance of polyethylene encased 
ductile iron pipe installed in highly corrosive soils because that has 
been the area of disagreement between Reclamation and DIPRA. As noted 
above, I have been informed that the DOT data set provided the best 
source of quantitative performance data of cathodically protected steel 
pipe installed with bonded dielectric coating available to Reclamation 
within the timeframe of the NAS review.
    Question 20. Will Reclamation accept data regarding the 
effectiveness of ductile iron pipe with polyethylene encasement in 
unknown soils as evidence that polyethylene encasement can meet 
Reclamation's corrosion standards?
    Answer. I am advised that Reclamation is open to any and all 
relevant performance data.
    Question 21. In the DOT data that Reclamation provided to the 
National Academies' Committee, Reclamation focused exclusively on 
``significant incidents'', which include:

  <bullet> Fatality or injury requiring in-patient hospitalization;
  <bullet> $50,000 or more in total costs, measured in 1984 dollars;
  <bullet> Highly volatile liquid releases of 5 barrels or more or 
        other liquid releases of 50 barrels or more; or
  <bullet> Liquid releases resulting in an unintentional fire or 
        explosion.

    The ``significant incidents'' listed above demonstrate the 
potential dangers that pressurized oil and gas pipelines present. Does 
Reclamation believe that the risks of a leak on a Reclamation water 
pipeline are comparable to the risks of a pressurized oil or gas 
pipeline leak?
    Answer. Depending on the location and nature of failures, water 
line ruptures can present significant hazards to the public.
    Question 22. It appears that the DOT database included all 
incidents on steel pipelines, not just the ``significant incidents''. 
Why did Reclamation only present the ``significant incidents'' to the 
National Academies' Committee?
    Answer. I am advised that the selection of this subset of DOT data 
was based on a desire to provide data on the types of corrosion induced 
problems within the DOT data which was as similar as possible to the 
types of serious failures described as: ``...external corrosion induced 
leaks/ruptures/failures which would require the pipeline to be taken 
out of service...'' noted in Reclamation's ``target performance 
level.''
    Question 23. Reclamation presented a standard that it wanted ``zero 
external corrosion induced leaks/ruptures/failures which would require 
the pipeline to be taken out of service'' during the first 50 years. 
Since Reclamation wanted perfection, how is a measurement of 
``significant incidents'' relevant?
    Answer. I am advised that during the NAS review, Reclamation did 
not characterize this performance level as a standard but rather as a 
``target performance level.'' As noted above, I am also advised that 
the selection of this subset of DOT data was based on a desire to 
provide data on the types of corrosion induced problems within the DOT 
data which was as similar as possible to the types of serious failures 
described as: ``...external corrosion induced leaks/ruptures/failures 
which would require the pipeline to be taken out of service...'' noted 
in Reclamation's ``target performance level.''
    Question 24. Has Reclamation ever used the 0.000044 failures/mile/
year standard to evaluate proposed project or pipe material?
    Answer. I am advised that Reclamation has not used this numerical 
analysis of the DOT data to evaluate a proposed project or pipe 
material.
    Question 25. Does Reclamation intend to use this or another 
calculation to evaluate pipe materials in the future?
    Answer. I understand that there are further technical 
considerations involved in evaluating pipe materials, and I would be 
willing to look into this matter if confirmed.
    Question 26. Do you believe that it is reasonable or cost-effective 
to require a 450-mile, Reclamation-funded water pipeline to have one 
external corrosion leak/rupture/failure in its first 50 years of 
service?
    Answer. I do not have experience with Reclamation's requirements in 
this area but would be willing to look into this matter if confirmed.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                   Ducks Unlimited,
                               Governmental Affairs Office,
                                       Washington, DC, May 1, 2009.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, SH-703 Hart Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, SH-709 Hart 
        Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: On behalf of 
Ducks Unlimited's (DU) one million members and supporters, we would 
like to share our support for Rhea Suh as you consider her nomination 
to be Assistant Secretary for Policy Management and Budget in the 
Department of the Interior. For over 70 years, DU has worked to 
conserve waterfowl and the habitat they depend on, and in doing so, we 
have advocated for better wildlife conservation that benefits 
waterfowl, landowners, and the general public. Based on our work with 
her, we believe that Ms. Suh has the background, experience, and 
leadership abilities necessary to perform in an exceptional manner in 
the position of Assistant Secretary.
    Rhea Suh has worked throughout the Pacific Flyway with Ducks 
Unlimited to protect key coastal and wetland habitats. She has been a 
leader in waterfowl and wetland conservation in the Boreal forest of 
Canada. Working for the Hewlett Foundation, in partnership with The Pew 
Charitable Trusts and Ducks Unlimited, Suh has supported key long-term 
protection for a Boreal Landscape that is critical to scaup, scoter, 
wigeon, green-winged teal, black duck, and mallard ducks. Suh has 
worked closely with the International Boreal Conservation Campaign and 
our organization to seek true long-term conservation solutions with a 
myriad of stakeholders.
    Thank you for your consideration of Rhea Suh to serve the 
Department of Interior as Assistant Secretary for Policy, Management, 
and Budget. Please let us know if we can assist in any way.
            Sincerely,
                                       Scott A. Sutherland,
                                                          Director.
                                 ______
                                 
                                     WateReuse Association,
                                                    April 23, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman: On behalf of the WateReuse Association, I 
am writing in strong support of President Obama's nomination of Mr. 
Michael L. Connor to become the next Commissioner of the U.S. Bureau of 
Reclamation (Bureau). Over the past five years, we have worked with Mr. 
Connor in his capacity as counsel to the committee. During this time, 
he has displayed an uncommon capacity to address policy issues in an 
open manner that contributed to the development of public policy that 
effectively addresses the water supply needs of our membership. Mr. 
Connor will bring to the Bureau a wealth of experience and expertise to 
allow the Bureau to meet the challenges of climate change, growing 
populations, and water scarcity throughout the West. We hope that your 
committee will act swiftly on his confirmation hearing in the coming 
weeks.
    Mr. Connor's credentials and experience illustrate an individual 
uniquely qualified to assume the duties of Commissioner. With a degree 
in chemical engineering and working within industry, he has the 
knowledge essential to manage complicated programs. As a former 
official of the Department of the Interior's Office of the Solicitor, 
he is well versed in the statutory obligations of the Department and 
the Bureau. And finally, his most recent duties as Counsel to the 
committee on Energy and Natural Resources provide a special 
understanding of the policymaking process. Each of these 
accomplishments alone makes him an outstanding selection. Together, 
they represent an opportunity for a talented individual to take the 
helm of the Bureau and swiftly address the many water-related needs of 
the West.
    Again, we are hopeful that the committee will move without delay 
and convene Mr. Connor's confirmation hearing and move the nomination 
to the Senate floor for a positive vote.
            Sincerely,
                                           Richard Atwater,
                                                         President.
                                 ______
                                 
                             Southeastern Colorado,
                                Water Conservancy District,
                                        Pueblo, CO, April 19, 2009.
Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Building, U.S. Senate, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, U.S. Senate, Washington, DC.
Re: Nomination and Confirmation of Michael L. Connor for Commissioner 
of the Bureau of Reclamation.

    Dear Senators Bingaman and Murkowski: It is my privilege to write 
today in support of the nomination of Michael L. Connor for the post of 
Commissioner of the Bureau of Reclamation and I ask the Committee to 
support his confirmation.
    As you know, Mr. Connor has more than 15 years of experience in the 
public sector, including having served as Counsel to the U.S. Senate 
Energy and Natural Resources Committee, where he managed legislation 
for the Bureau of Reclamation and other issues that are within the 
Energy Committee's jurisdiction. In addition, from 1993 to 2001, Mr. 
Connor served in the Department of the Interior, including as deputy 
director and then director of the Secretary's Indian Water Rights 
Office from 1998 to 2001. In his capacity, Mr. Connor represented the 
Secretary of the Interior in negotiations with Indian tribes, state 
representatives, and private water users to secure water rights 
settlements consistent with the federal trust responsibility to tribes.
    Mr. Connor's experience makes him highly qualified to serve as 
Commissioner. In addition, Mike has a proven track record of building 
consensus with a wide range of stakeholders, including the Southeastern 
Colorado Water Conservancy District. We at the District look forward to 
working with him to ensure that we are wisely managing our precious 
water resources at the Fryingpan-Arkansas Project for the benefit of 
the people of southeastern Colorado.
    Again, please support confirmation of Mr. Connor for the post of 
Commissioner of the Bureau of Reclamation.
            Sincerely,
                                                 Bill Long,
                                                         President.
                                 ______
                                 
                      National Water Resources Association,
                                     Arlington, VA, March 23, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 
        Dirksen Senate Office Building, SD-304, Washington, DC.
    Dear Mr. Chairman: I am writing on behalf of the membership of the 
National Water Resources Association in unanimous support of President 
Obama's selection of Michael L. Connor to be the next Commissioner of 
the U.S. Bureau of Reclamation. It is our opinion that the President 
could not have chosen a more qualified individual.
    For the past eight years, NWRA members have worked on a myriad of 
water and energy issues with Mr. Connor in his role as both majority 
and minority counsel to the Senate Committee on Energy and Natural 
Resources. Mr. Connor has a solid understanding of the issues facing 
Western water and energy customers and has always been a facilitator of 
compromise and fairness.
    We believe Michael Conner will be a great asset to Secretary 
Salazar, the President and the members of both the Senate Energy and 
Natural Resources Committee and the House Natural Resources Committee 
as they address the challenges ahead.
    In the strongest possible terms, the National Water Resources 
Association supports the nomination of Michael L. Connor as the 
Comissioner of Reclamation and urges the Committee to expeditiously 
report his nomination to the full Senate.
    If we can assist the Committee in any manner, please do not 
hesitate to contact me personally.
            Respectfully submitted,
                                        Thomas F. Donnelly,
                                          Executive Vice President.

                                    

      

</pre></body></html>
